<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2009 

_______________________________________________________________________

                                HEARINGS
                                BEFORE A
                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS
                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________

     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES
                ROSA L. DeLAURO, Connecticut, Chairwoman
 MAURICE D. HINCHEY, New York               JACK KINGSTON, Georgia
 SAM FARR, California                       TOM LATHAM, Iowa
 ALLEN BOYD, Florida                        JO ANN EMERSON, Missouri
 SANFORD D. BISHOP, Jr., Georgia            RAY LaHOOD, Illinois
 MARCY KAPTUR, Ohio                         RODNEY ALEXANDER, Louisiana
 JESSE L. JACKSON, Jr., Illinois
 STEVEN R. ROTHMAN, New Jersey     

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Martha Foley, Leslie Barrack, Jason Weller, and Matt Smith,
                            Staff Assistants

                                ________

                                 PART 6

                 UNITED STATES DEPARTMENT OF AGRICULTURE

                    Research, Education and Economics

                   [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                ________

         Printed for the use of the Committee on Appropriations

















 PART 6--AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION,
             AND RELATED AGENCIES APPROPRIATIONS FOR 2009






















   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2009

_______________________________________________________________________

                                HEARINGS
                                BEFORE A
                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS
                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________

     SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES
                ROSA L. DeLAURO, Connecticut, Chairwoman
 MAURICE D. HINCHEY, New York          JACK KINGSTON, Georgia
 SAM FARR, California                  TOM LATHAM, Iowa
 ALLEN BOYD, Florida                   JO ANN EMERSON, Missouri
 SANFORD D. BISHOP, Jr., Georgia       RAY LaHOOD, Illinois
 MARCY KAPTUR, Ohio                    RODNEY ALEXANDER, Louisiana
 JESSE L. JACKSON, Jr., Illinois
 STEVEN R. ROTHMAN, New Jersey      

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Martha Foley, Leslie Barrack, Jason Weller, and Matt Smith,
                            Staff Assistants

                                ________

                                 PART 6

                 UNITED STATES DEPARTMENT OF AGRICULTURE

                    Research, Education and Economics

                   [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 48-544                     WASHINGTON : 2009









                    COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JAMES T. WALSH, New York
 JOSE E. SERRANO, New York          DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut       JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia           JACK KINGSTON, Georgia
 JOHN W. OLVER, Massachusetts       RODNEY P. FRELINGHUYSEN, New Jersey
 ED PASTOR, Arizona                 TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina     ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr.,     ROBERT B. ADERHOLT, Alabama
  Alabama                           JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       JOHN E. PETERSON, Pennsylvania
 LUCILLE ROYBAL-ALLARD, California  VIRGIL H. GOODE, Jr., Virginia
 SAM FARR, California               RAY LaHOOD, Illinois
 JESSE L. JACKSON, Jr., Illinois    DAVE WELDON, Florida
 CAROLYN C. KILPATRICK, Michigan    MICHAEL K. SIMPSON, Idaho
 ALLEN BOYD, Florida                JOHN ABNEY CULBERSON, Texas
 CHAKA FATTAH, Pennsylvania         MARK STEVEN KIRK, Illinois
 STEVEN R. ROTHMAN, New Jersey      ANDER CRENSHAW, Florida
 SANFORD D. BISHOP, Jr., Georgia    DENNIS R. REHBERG, Montana
 MARION BERRY, Arkansas             JOHN R. CARTER, Texas
 BARBARA LEE, California            RODNEY ALEXANDER, Louisiana
 TOM UDALL, New Mexico              KEN CALVERT, California
 ADAM SCHIFF, California            JO BONNER, Alabama
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas            

                  Rob Nabors, Clerk and Staff Director

                                  (ii)




 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2009

                              ----------                              

                                           Tuesday, March 11, 2008.

                RESEARCH, EDUCATION AND ECONOMICS BUDGET

                               WITNESSES

GALE A. BUCHANAN, UNDER SECRETARY, RESEARCH, EDUCATION, AND ECONOMICS
MERLE D. PIERSON, DEPUTY UNDER SECRETARY, RESEARCH, EDUCATION, AND 
    ECONOMICS
EDWARD B. KNIPLING, ADMINISTRATOR, AGRICULTURAL RESEARCH SERVICE
COLIEN HEFFERAN, ADMINISTRATOR, COOPERATIVE STATE RESEARCH, EDUCATION, 
    AND EXTENSION SERVICE
KATHERINE R. SMITH, ADMINISTRATOR, ECONOMIC RESEARCH SERVICE
JOSEPH T. REILLY, ACTING ADMINISTRATOR, NATIONAL AGRICULTURAL 
    STATISTICS SERVICE
W. SCOTT STEELE, BUDGET OFFICER, DEPARTMENT OF AGRICULTURE
    Ms. DeLauro. The committee is called to order. Thank you. I 
would very much like to welcome Under Secretary Buchanan, 
Deputy Under Secretary Pierson, Administrators Knipling, 
Hefferan, and Smith. Did I get everyone? And Mr. Reilly. Okay. 
Very good. Sorry. And welcome to Scott Steele.
    Mr. Steele. Thank you.
    Ms. DeLauro. We all know that the research, economics, and 
extension budget is critical to sustaining America's 
agriculture place in the world as a leader in the scientific 
discovery and development. The results of the research are 
critical to crop development, to nutrition, to food safety, 
competitiveness, international trade, even homeland security.
    Much of the good work is being done within our impressive 
land grant university system and in our experiment station. 
Some Connecticut institutions, for example, have used a stable 
foundation of predictable formula funds that had been available 
for years in order to hone research and respond immediately to 
plant and animal disease outbreaks such as West Nile virus and 
Lyme disease.
    Indeed, the Connecticut agricultural experiment station, 
which is just about two blocks from my home in New Haven--and, 
by the way, the first agricultural experiment station in the 
country--they were instrumental in uncovering the problems 
involving imports from China last year that discovered 
components of antifreeze in toothpaste imported from China, and 
played a key role in discovering a high concentration of lead 
in toys imported from China. The same station also was part of 
the network of labs that examined pet food that was 
contaminated with melamine last year.
    This is the type of work that represents an opportunity for 
the state to become one of the first to detect potentially 
dangerous outbreaks, as well as one of the first to respond. It 
is urgent work taking place at the Connecticut agricultural 
experiment station with a clear purpose. It is not pork. It is 
not pet projects or a bridge to nowhere.
    I should note that I am concerned about your budget's 
proposal to redirect a significant percentage of Hatch formula 
funds and the McIntyre-Stennis funds to a national 
competitively awarded multi-state project. Competition is not a 
bad thing; it is a good thing. But this plan may destabilize 
our land grant and forestry funding system. As a nation, we 
depend on the land grant system to provide certain services, 
and we cannot afford to compromise its abilities to meet those 
commitments.
    I am also taken aback by the wholesale closure of 20 ARS 
facilities across the country. I don't think that this is the 
moment to limit the capacity of groundbreaking agricultural 
research that is performed at these labs. Let me further 
highlight some of the proposed increases in research--
bioenergy, water reuse in agricultural systems, and funding for 
research into the obesity epidemic. I believe these are 
critical investments, and I am delighted and glad to see that 
there is a renewed focus on these areas.
    Your budget also includes an increase for food safety 
research, particularly the study of E. coli and other pathogens 
in fresh produce. Of course, we have witnessed an increase in 
the consumption of fresh fruits and vegetables. In light of the 
spinach recall in the latter part of 2006, it is clear that the 
results of your research will be vitally important.
    So I thank all of you again today. I look forward to 
discussing these issues with you. I will yield time to the 
ranking member when he comes in for his opening comments, if he 
chooses to make them.
    What we will now do is to move to your testimony, Dr. 
Buchanan. And you know that the testimony will be in the 
record. And so we will ask you to summarize and make the points 
that you would like to make, and then we can begin with the 
questioning.
    I understand we have guests here this morning as well, the 
ARS Fellows? Okay. Very good. Thank you, and welcome to the 
hearing. Delighted to have you.

                           Opening Statement

    Dr. Buchanan. Madam Chairwoman, members of the 
subcommittee, I am very pleased to appear before you to discuss 
the President's fiscal year 2009 budgets for the Research, 
Education, and Economics mission area of the U.S. Department of 
Agriculture and all of the agencies involved in that mission 
area.
    I am accompanied by Dr. Merle Pierson, Deputy Under 
Secretary of REE; Dr. Ed Knipling, Administrator of the 
Agricultural Research Service; Dr. Colien Hefferan, 
Administrator of the Cooperative State Research, Education, and 
Extension Service; Dr. Katherine Smith, Administrator of the 
Economic Research Service; and Mr. Joe Reilly, Acting 
Administrator of the National Agricultural Statistics Service. 
Also present is Dr. Scott Steele, Director of the Office of 
Budget and Program Analysis for the Department. Each 
administrator has provided written testimony for the record.
    The President's budget requests $2.3 billion for the four 
REE agencies. The process for developing this budget required 
making tough choices to hold spending in check in order to 
achieve the President's goals on the balanced budget by 2012. 
Within the total $2.3 billion are requests for increases in 
higher priority programs, including bioenergy and biobased 
products, food safety, and water-related programs. These 
increases are offset by the elimination of congressional add-
ons and decreases in lower priority programs.
    This has been a very productive year for the REE mission 
area in this agency. We have achieved an increased level of 
collaboration across the agencies in REE, across the 
Department, and across the Federal government. While such 
collaboration is always extremely valuable, it is close to a 
necessity during a tight budget.
    I am particularly pleased with the REE agencies who are 
enthusiastically engaged in coordination of research and 
education and other activities related to bioenergy and 
bioproducts, and in support of the President's goal for 
achieving a greater degree of energy security.
    The REE mission area has worked hard this past year to 
develop the USDA REE Energy Science Strategic Plan. This 
provides a road map for the bioenergy and bioproducts programs 
of each of the four agencies for the next five years. The plan 
identifies the unique capacity of each of the REE agencies to 
address specific aspects of the energy situation.
    Among the many bioenergy initiatives, we are planning an 
international energy science conference on sorghum later in the 
summer, to be held in Houston, Texas. Also, I want to invite 
you to participate in the Bioenergy Awareness Day, or BEAD II, 
which is scheduled for June 21st, which is the summer solstice.
    BEAD II will showcase advances in agricultural energy 
science, and this year's event will be held at both the 
National Arboretum and on the lawn of the Jamie Whitten 
Building on the National Mall. The Nation's first energy crops 
garden, including over 20 biofuel crops, will be established at 
the National Arboretum.
    Collaboration efforts across agencies and departments in 
bioenergy and bioproducts has become more active and visible 
over the last year. It has become the standard modus operandi 
for the REE agencies. ARS routinely establishes effective 
collaboration with scientists at universities where ARS labs 
are located. CSREES collaborates with several other departments 
in planning its research program. The agency also develops 
jointly funded competitive grant programs with other 
departments, such as DOE and NSF.
    We are also pursuing ideas for research collaboration in 
energy science with the Department of Defense. Some other 
particularly notable collaborations include research on colony 
collapse disorder that is threatening the honeybee industry and 
the livelihood of many fruit and vegetable growers.
    NASS is partnering with community-based organizations and 
tribal governments at a unprecedented level for the 2007 Census 
of Agriculture with the goal of increasing participation of 
minority and American Indians. Historically, they have been 
under-represented in the Census of Agriculture.
    With the CSREES funding and leadership, a network of land 
grant universities has developed ``eXtension.'' This is a new 
Web-based information system that will provide objective, 
scientific, research-based information to the public. eXtension 
will serve the needs of the anywhere-anytime generation of 
American users, giving them quick access to the organized 
customized resources they need to make informed decisions. It 
is an excellent example of how we are using the collaborative 
approach to improve the effectiveness and make better use of 
limited resources.
    Turning to the fiscal year 2009 budget, I would like to 
highlight four priority areas identified for special attention 
in preparation of the REE agency budget. These include 
bioenergy and bioproducts, nutrition and obesity, food safety, 
and water.
    The President's 2009 budget proposes an increase of $29 
million of bioenergy and biobased products for the four REE 
agencies. This includes: a $6 million increase for research 
focusing on the development and use of energy crops and crop 
residues and efficient conversion to biofuel; a $19 million 
increase in competitive grants for bioenergy; $1.3 million to 
provide multidisciplinary undergraduate and graduate level 
programs; $0.4 million to strengthen our ability to analyze the 
regional impacts of bioenergy production; and $1.8 million to 
establish a data series on key elements of bioenergy production 
and use.
    Obesity continues to be a major health problem for America. 
The incidence of overweight and obesity in children is of 
particular concern, foreshadowing a lifetime of health problems 
associated with being overweight, such as diabetes. The 
President's budget proposes a $12 million increase in ARS for 
research to determine the efficacy of healthy eating and 
physical activity patterns in the Dietary Guidelines in 
preventing obesity. A particular focus will be in preventing 
obesity in children and understanding the dietary patterns that 
contribute to obesity in low socioeconomic and minority 
populations.
    The ARS budget proposes an increase of $14 million to 
enhance research to safeguard the Nation's food supply from 
foodborne pathogens and pathogens of biosecurity concerns. For 
example, the contamination of fresh produce remains an issue of 
concern for consumers, as well as the produce industry. The 
funds will support enhanced research to better understand the 
fate and movement of pathogens such as E. coli O157:H7 in 
vegetables and small fruit production.
    Competing human, industrial, recreational, and ecosystem 
demands for water are challenging agriculture's access to water 
supplies. The ARS budget proposes $8 million to address several 
aspects of water reuse, including development of best 
management practices for our food production systems and 
processing plants. Under its national integrated water program, 
CSREES will support projects that address water and wastewater 
reuse as well.
    The President's fiscal year 2009 budget request for the 
four agencies in the REE mission area provide a balanced 
research, education, and economics portfolio to address high 
national priority issues, and the proposed budget will enable 
the REE agencies to continue to make new discoveries and 
develop new technologies that contribute to the success of 
American agriculture. This success allows Americans to enjoy 
the highest quality, safest, and lowest cost food anywhere, 
while contributing to the Nation's effort to achieve a greater 
degree of energy security.
    Thank you, and I look forward to responding to your 
questions and hearing your comments.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                          FOOD SAFETY INCREASE

    Ms. DeLauro. Thank you very much, Dr. Buchanan.
    You just mentioned that under food safety, the ARS budget 
proposes an increase of $14 million. In the testimony, it says 
the ARS budget proposes an increase of $7 million to enhance 
research to safeguard the nation's food supply from foodborne 
pathogens. I am more excited about 14. Is it 7 or 14?
    Dr. Buchanan. It is 14. Am I right, Dr. Knipling?
    Dr. Knipling. That would include some of the related 
homeland security work that also has potential food safety 
implications.
    Dr. Buchanan. And also, there is an increase in CSREES.
    Ms. DeLauro. Can you just break down and get that to me, 
the breakdown of that $14 million, so I can see where----
    Dr. Buchanan. We can certainly get that to you. Yes. Yes, 
ma'am.
    [The information follows:]

    The FY 2009 Budget for ARS includes a $7 million increase in food 
safety research for enhanced activities on management and intervention 
strategies to prevent pre- and post-harvest pathogen contamination of 
produce. In addition, $7 million of ARS food safety research projects 
funded in FY 2008 have been reclassified in support of Homeland 
Security. This reclassification, of existing food safety projects, 
increases the amount of research that supports Homeland Security, but 
does not enhance overall food safety research activities.

    Ms. DeLauro. Lovely. That is fine. Thank you.

                  COMMODITY SUPPLEMENTAL FOOD PROGRAM

    I guess, Dr. Smith, this is about ERS, the commodities 
supplemental food program urban report. You have contracted 
with the Urban Institute to do a report on the Commodity 
Supplemental Food Program, CSFP, entitled, ``New News about an 
Old Program.'' Now, the program is a significant source of 
nutritional assistance for low income seniors, and the package 
can be a substantial portion of seniors' monthly allowance for 
food.
    I know the report has not been published yet, but I was 
wondering if you could talk a little bit about the findings in 
the report and, more specifically, why the CSFP participants 
either are ineligible or unwilling to participate in the food 
stamp program.
    Dr. Smith. Thank you. I would be delighted to----
    Ms. DeLauro. Just pull it over towards you.
    Dr. Smith [continuing]. To speak to that. The CSFP was 
founded in 1969, which was before the WIC Program, and has 
always been for eligible individuals who are pregnant or 
postpartum, children under the age of 6, or seniors above the 
age of 60. When WIC came into being, most of the pregnant and 
nursing mothers went to WIC. And at the present time, 91 
percent of all of the participants in CSFP are seniors. There 
are several reasons for----
    Ms. DeLauro. Low income seniors. Correct?
    Dr. Smith. Not necessarily. Not necessarily, no. There is 
more flexibility in the CSFP.
    Ms. DeLauro. Right.
    Dr. Smith. You can have assets that are substantial, so you 
can own your own home and be a senior and get benefits from 
that program, which is not true for food stamps. You can 
benefit from the food packages under the Commodity Supplemental 
Food Program if you have income one-third above the poverty 
line without the benefits being ratcheted down, as is the case 
for food stamps.
    And there is also some stigma in the senior group that 
appears not to be as significant in younger groups. And 
therefore, the seniors have no real incentive to go over to 
food stamps.
    Ms. DeLauro. Say that again, that last part?
    Dr. Smith. The seniors have no real incentive to go to food 
stamps if they are stigmatized, if they have assets, or if they 
have a relatively high income. It still has to be below 130 
percent of the poverty level.
    Ms. DeLauro. Right. It is 130 percent of the poverty level.
    Dr. Smith. Yes.
    Ms. DeLauro. But what about the findings in the report? 
What have you found out about this program?
    Dr. Smith. I don't have the specifics, but I will be happy 
to provide those to you.
    Ms. DeLauro. Is the report going to be published?
    Dr. Smith. Yes, it will.
    Ms. DeLauro. When?
    Dr. Smith. I am not sure. Within the next six months.
    Ms. DeLauro. Well, is the report complete? Is it----
    Dr. Smith. Preliminary findings are available. I just don't 
have them.
    Ms. DeLauro. You don't have the preliminary findings?
    Dr. Smith. Right. But I can get them to you.
    Ms. DeLauro. Yes. And I would just love to see that. I 
mean, it seems like a program that is meeting its goals in 
terms of what you said, what, 90, 91 percent of seniors are 
participating in it.
    Dr. Smith. It has its constituents, and it is the best 
program for them.
    [The information follows:]

    Preliminary Findings of the Commodity Supplemental Food Program 
(CSFP):
    Participation by women and children in the CSFP is low--about 7 
percent of all participants. CSFP predated the Special Supplemental 
Nutrition Program for Women, Infants, and Children (WIC), which has now 
superseded it as the dominant nutrition assistance program serving this 
category.
    The overwhelming majority--93 percent of--current CSFP participants 
are low-income seniors. Much of the current policy debate focuses on 
this group, how the program serves them, and why seniors may choose 
that program in preference to the Food Stamp Program (FSP).
    Some CSFP-eligible seniors are not eligible for FSP because of 
asset limitations. The CSFP does not have an asset test, whereas the 
FSP limits eligibility to low-income seniors with assets of $3,000 or 
less.
    Of those who are eligible for both CSFP and FSP, many seniors 
believe they receive more valuable benefits from CSFP than they would 
receive from FSP. The CSFP provides the same food package to all 
participants, whereas FSP benefit levels are adjusted on the basis of 
household size and income. Interviews indicated many seniors were 
deterred from participating in FSP by the belief that they would 
receive only a minimum benefit.
    Some seniors may prefer receiving a food package to redeeming food 
stamp benefits in supermarkets--particularly those with mobility or 
transportation problems, or living in areas not well served by retail 
(based on focus group interviews).
    Enrollment in CSFP is simpler than in FSP and WIC. Focus group 
interviews suggest many participants prefer CSFP for this reason.
    A few may participate in both programs. CSFP participants may 
legally participate in the FSP as well. Focus group interviews with 
CSFP participants, however, indicated low rates of participation in the 
FSP.

                              FOOD PRICES

    Ms. DeLauro. Let me ask a further question. This is in the 
2008 conference report: ``Direct the department to provide 
monthly reports on the program performance and estimated 
funding requirements to fully fund the WIC program. The 
department is to consider and include in these estimates 
current participation trends and current Economic Research 
Service food cost estimates in developing updated WIC 
estimates.''
    The first report from the department was over a month late 
and does not include current ERS food cost estimates as 
required. How often is ERS updating the WIC food cost 
estimates?
    Dr. Smith. I am not sure about that, either. We do update 
our estimates of food price projections on a monthly basis, but 
I don't know whether that is the same as the costs that go into 
the WIC Program. They are probably defined more specifically. 
And again, I will have to find that out for you, too.
    [The information follows:]

    ERS monitors trends in food prices. The Consumer Price Index (CPI) 
for food is published by the Bureau of Labor Statistics (BLS). ERS uses 
food prices indices from BLS and makes one year to 18 month forecasts 
for overall food prices and components. These are posted on our Web 
site and updated if the conditions on which they are based should 
change significantly. ERS provides USDA's Food and Nutrition Service 
(FNS) with forecasts of CPI for the specific food categories that are 
included in the WIC package. FNS then uses the ERS-provided information 
to update WIC cost estimates. ERS does not estimate nor does it 
forecast WIC costs. The ERS forecasts of future food price changes 
provided to FNS are updated on a quarterly basis as market conditions 
change.

    Ms. DeLauro. Please. Thank you. It sounds like it is from 
the way you have described it.
    Will ERS comply with the mandate in the fiscal year 2008 
conference report to provide monthly updated food cost 
estimates?
    Dr. Smith. Yes.
    Ms. DeLauro. Can the committee expect to receive the 
updated WIC food cost estimates in future monthly reports from 
the Department?
    Dr. Smith. I can't answer for the Department, but we will 
certainly make sure that they are available for incorporation.
    Ms. DeLauro. Let me yield to the ranking member, who has 
joined us, for opening comments.
    Mr. Kingston. Well, thank you, Madam Chair. I was with the 
mayor of the city of Atlanta, and as you know, they are having 
a big drought issue. So I appreciate your courtesy in letting 
us use Martha's office. While I was there, I rearranged some 
files. I didn't know she was such a Bush supporter, by the way. 
[Laughter.]
    Ms. DeLauro. When mayors come to town, you have to meet 
with them.
    Mr. Kingston. Let me yield to Mr. Latham. I do have a 
number of questions, but he has been sitting here, so I wanted 
to--and I appreciate it. And I welcome Dr. Buchanan and all of 
you guys.
    Ms. DeLauro. Mr. Latham.

                               HATCH ACT

    Mr. Latham. Thank you very much, and welcome everyone.
    It is like deja vu all over again. On research funding, 
your request seeks to move 42 percent of Hatch Act monies into 
the competitive grant category, which you have asked for 
previously. I guess my question would be, number one, why do 
you continually ask for this? It isn't going to happen.
    But, I mean, don't you believe that it would certainly hurt 
rural areas of the country? Are you planning on changing the 
law? Do you have a request to change what the law says as far 
as Hatch Act?
    Dr. Buchanan. I don't think so.
    Mr. Latham. So you are not requesting any change as far as 
the mission of Hatch Act?
    Dr. Buchanan. It would be in the appropriation but not----
    Mr. Latham. But do you have any kind of feeling what you 
would do to ongoing research or in rural areas? Those 
competitive grants would probably go, as we have seen in some 
other----
    Dr. Buchanan. Well, I will like to respond and ask Dr. 
Hefferan to respond. But clearly, the Administration feels that 
the process of identifying RFAs and then competing to identify 
the best laboratory or the best scientist to address a problem 
is the most effective way to go.
    I have been an experiment situation director. I have been a 
dean. And clearly, the most important thing is to provide the 
availability of resources. And I see this as a very positive 
development.
    Now, another thing is that these have been moved to what we 
call multi-State competitive programs, which is a way of 
competing, but it does involve multiple states, which 
encourages exactly one of the things that we try to encourage, 
and that is collaboration among scientists and among different 
institutions in different states.
    So there are some real positive things that have been 
developed out of this concept. I would like for Dr. Hefferan to 
amplify on that, if she would, if I may.
    Dr. Hefferan. Well, certainly there is a substantial cut in 
the formula-based programs. I will say it is not for the 
purposes of redirection specifically. As you noted, the request 
for the competitive programs this year is exactly what it was 
last year. There certainly are challenges----
    Mr. Latham. Did you request this to OMB?
    Dr. Hefferan. No. The budget process is a long and 
complicated----
    Mr. Latham. That is not a hard question. Did you request 
this to OMB?
    Dr. Buchanan. Yes.
    Mr. Latham. Okay.
    Dr. Hefferan. Essentially, what we are working to do is to 
rebalance the portfolio so that there is a larger proportion 
focused on competitive awards. We are not proposing to 
completely cut out the state-allocated formula funds, but to 
focus on this rebalance consistent with science funding across 
all Federal agencies. Although I certainly wouldn't 
characterize universities as endorsing this, I will say that 
they have been very----
    Mr. Latham. You are right there.
    Dr. Hefferan. No. No, and I wouldn't do that, obviously.
    Mr. Latham. Perfect.
    Dr. Hefferan. But I will say that they have been very 
helpful in thinking about how one would develop a program in 
response to a growth in funding that could be used for multi-
State programs. It is challenging, in a budget that wants to 
focus on the highest level national programs in science, to 
find a way to do that. And competitively awarded programs are 
the gold standard for the way research is funded by the Federal 
government, and this budget reflects that.
    Mr. Latham. Have you done any kind of study as to what the 
effect would be as far as regional-based long-term agricultural 
research? I mean, stuff that is in place that there is 
certainty out there that you can actually look 20 years down 
the road rather than have to look to the next appropriations 
bill?
    Dr. Hefferan. Well, I will say that in the proposal that we 
have, we are not proposing to cut off any of the five-year 
projects that are currently going on, for example, under the 
multi-State program. Those would be completed.
    Mr. Latham. But you wouldn't have any new five-year 
programs, would you?
    Dr. Hefferan. Yes. Well, we would compete new programs, but 
we wouldn't discontinue anything that is currently ongoing.
    Mr. Latham. And if you are subject to an annual 
appropriation, you don't know that those five-year plans are 
going to work, do you? You are not going to have the funding 
for the five-year plan if in fact the whim of the dollars 
aren't there?
    Dr. Hefferan. That is true. Certainly all of our multi-year 
plans are subject to the availability of appropriations.
    Mr. Latham. So for somebody to plan to hire a research 
scientist, there is really no certainty for them, is there?
    Dr. Hefferan. There is no certainty. Typically, however, 
Federal funding for university-based science is awarded through 
competitive processes across government. We are trying to be 
consistent with the standard of science.
    Mr. Latham. In ARS, we have the national animal disease 
center, obviously--I am sorry. I am out of time. Thank you, 
Madam Chair.
    Ms. DeLauro. Mr. Farr.
    Mr. Farr. Thank you very much, Madam Chair. I wish we could 
have this panel for about a week because I think what you are--
America's seed corn for inventiveness is in your domain, Dr. 
Buchanan. And I always appreciate it because of all these 
agricultural fights we have, we have to remember that we are 
only going to stay ahead of the competition as long as we are 
smarter and can get a better bang for the buck.
    And I was very pleased to see that your priority issues on 
food safety, obesity prevention, crop diseases, and water reuse 
all come together in my district. And I like to think that all 
agricultural politics is local, as they say around here, and 
everything that the USDA does, does it in someone's back yard.
    My backyard is--the Census Bureau just pointed out the 
Monterey County was the highest farm income county in the 
United States. And people don't think of coastal crops as being 
that, but we grow 85 different crops. And one of the things 
that I would kind of like to get into is that your research 
initiatives certainly the E. coli breakout last year with 
spinach and found it in fresh lettuce, and the impact it had on 
the market, you know, we never got any help for all those 
voluntary recalls. And I do appreciate the emphasis in food 
safety and the new money in there on E. coli research.

                               BIOENERGY

    I am also interested in your bioenergy and bioproducts. 
What I missed in your document, I guess I have the testimony of 
Dr. Knipling's before the subcommittee, the authorizing 
subcommittee, but there was no mention of biodiesel. And I 
wondered whether that is part of your research as well. We have 
the only certified biodiesel production plant in California in 
our district.
    Maybe you can just answer: Is that going to be part of your 
energy research?
    Dr. Knipling. Yes, very much so. In addition to the budget 
proposals for fiscal 2009, ARS has a substantial base research 
program ongoing, approximately $20 million of what we would 
classify as renewable energy research. And that does include a 
portfolio of activities, including biodiesel, particularly from 
soybeans, but from other oil seed crops as well. And in fact, 
the proposed initiative for next year does include some 
enhancement of and reallocation of money now associated with 
peanut research, but to explore the use of peanuts as a 
biodiesel feed stock.
    Mr. Farr. Well, I am keen on biodiesel. Why? Because every 
tractor out there is running on diesel. So why not just keep it 
in the same genre of fuels? And I think there is a great 
potential here of having a switchover right away with--I mean, 
this guy in our district does it all with local products; I 
don't think he has to import anything.

                           NUTRITION PROGRAMS

    A big concern to this committee, and high on your priority 
list, is obesity prevention. And I think, and I want to know if 
perhaps Dr. Smith could do this: We have a hunger caucus in my 
district that is all the feeding programs, from WIC to Meals on 
Wheels to Second Harvest to food banks, you name it. And every 
time I meet with them, they are all in a different silo. They 
can't even collaborate.
    And I wondered whether your research could help us see how 
we could get a better bang for the buck of just pulling 
together all these different agencies who are interested in 
feeding and nutritional food. And certainly, I mean, if Marcy 
Kaptur were here, one of the things that we are really keen on 
is promoting these farmer markets.
    But in these farmer markets, we are finding that people 
don't have--some of them, but most of them don't have any way 
of accepting food stamps or accepting WIC vouchers. And it 
seems to me that is just one of those easy things to do. I 
mean, cab drivers can accept your credit card, so I don't know 
why vendors can't accept those vouchers. And perhaps you could 
look into that.
    But the biggest problem I have, and I hope you will really 
look into it, is that when we buy material for the school lunch 
and school breakfast program, we buy it through the military 
depot in Philadelphia. And they are buying all the commodity 
crop. This is a big problem because commodity crops, you know, 
you could store them and pack them and send them around easily.
    Now that we are field to fork fresh food, and the packaging 
of that food has gotten very good, why don't we try to get more 
of those fresh vegetables? I mean, it is a disaster when you 
look at what we procedure in the Department of Agriculture for 
those programs and we give out, where a lot of it is peanut 
butter and wheat products and so on.
    And you are about to redo your Dietary Guidelines. I don't 
think it is a lack of reading the guidelines. It is a lack of 
getting food on the plate. And there is just logistics that 
could easily be changed to do that.
    Did my time go that fast? You don't get any brownie points 
for getting here before anybody else, huh? [Laughter.]
    Ms. DeLauro. Mr. Kingston.
    Mr. Kingston. You have got to say the chairwoman is very 
generous of letting us get a lot of questions in. And I am with 
you. I think we could keep this panel for a week.

                    WATKINSVILLE RESEARCH LABORATORY

    Dr. Buchanan, I have to pick on you as a friend of mine and 
as a fellow Athenian. You know, the ARS lab in Watkinsville, 
which I believe you have received a letter from Senators 
Isakson and Chambliss about your decision to close it or the 
Secretary's decision to close it, among other things, this is 
what that lab does.
    Develop soil management practices that increase 
infiltration of rainfall and irrigation to help mitigate 
Georgia's water crisis. They work on increased adoption of 
conservation tillage in Georgia's row crops; doing so could 
conserve 110 days equivalent of the State's annual water use. 
Particularly with Atlanta having a drought, that is of great 
relevance.
    They work with poultry litter applications for crop and 
pastures, and develop soil management practices of all sorts. 
And it appears to me what their research is in terms of not 
just the national picture but the immediate backyard picture in 
the State of Georgia with the drought, it seems odd that that 
lab is slated to be closed.
    Dr. Buchanan. Well, let me comment first, Congressman, and 
then I will ask Dr. Knipling to provide input. I am personally 
knowledgeable of that laboratory, having been Dean at 
University of Georgia and had many collaborative relationships 
with----
    Mr. Kingston. I knew you were, and I know you are probably 
in a little bit of a jam on this one. That is why I didn't ask 
Dr. Knipling. [Laughter.]
    Dr. Buchanan. But really, we had to make hard decisions. 
And I would say that every laboratory we are proposing to close 
is doing good work. It is not a matter of not being effective. 
It is just a matter of having to make tough choices in order to 
meet our budget.
    And much of the work--and I am going to ask Dr. Knipling to 
talk about where we are going to do other work. But we are 
going to continue some of that work at other locations. But you 
are right in that it has played a key role and it has made a 
lot of contributions.
    But we believe that the reasons that we propose to close it 
are sound. They fit the criteria that we established to make 
closures. And we will continue some of that work at other 
places.
    Mr. Kingston. Well, our office was kind of going through 
the motions on this one. And then last Friday I had a staffer 
go down and spend a half day there, and we were a lot more 
impressed after the tour with what they were doing. And again, 
it is relevant to what is going on in Georgia right now. And 
that is why we really have a little bit more intensity, and 
join the Senators on this one.

                          LABORATORY CLOSURES

    Dr. Buchanan. Well, we certainly had a very established 
list of criteria that we use to make closures. And Dr. 
Knipling, do you want to amplify on that?
    Dr. Knipling. Yes. There are several specific reasons and 
criteria associated with the Watkinsville lab. But I would just 
emphasize, as Dr. Buchanan did, in the context of our total 
budget allowances and the difficult choices that we had to 
make, some 20 laboratories and locations across all of ARS are 
affected, and Watkinsville is one of those.
    There are programmatic criteria and resource management 
criteria. For the most part, the Watkinsville program is a very 
mature program. That lab has been there for over 70 years. And 
in the grand scheme of things, we consider its activities, 
missions, largely accomplished.
    We are doing that work or have the capability to do that 
work elsewhere, including in the Southeast, in Georgia at 
Tifton, at Florence, South Carolina, and a number of other soil 
and water conservation labs throughout the United States, where 
we have a coordinated program.
    Resource management-wise, that program is of marginal 
variability. We have actually had to reduce staff in the past 
few years to maintain satisfactory resources for those that are 
remaining. So it is really not a sustainable, viable program in 
that sense.
    There are also infrastructure costs, facility maintenance. 
And this is a form of cost-avoidance, if you will, for future 
out-year liabilities for facility modernization.
    Mr. Kingston. Well, now that I have chastised you for that, 
I have got to go down the road a few miles and praise you for 
the Southeast poultry lab. You have great wisdom on that. 
[Laughter.]
    I want to close on Watkinsville lab. We have been working 
with Congressman Brown's office on this, and we will continue 
to stay in touch with you.

                      SOUTHEAST POULTRY LABORATORY

    But on the Southeast poultry lab, one of my questions is: 
Does the $13.2 million in the budget take care of it? Because I 
know that as you look at the history of these labs through the 
design phase, and then the longer the lag is between the design 
and the construction, the bigger the cost. And this thing has 
kind of been out there for a while. I have been a big proponent 
of it.
    Dr. Knipling. As you know, we have been working on this 
concept for several years and had several previous 
conversations with you. The total construction project is 
targeted at $207 million. The first phase is the architectural 
and engineering design, and this committee provided, this 
fiscal year, 2008, $2.8 million toward that.
    So our request in 2009, the $13.2 million, brings us up to 
a total of $16 million. And that is sufficient to get the 
architectural and design activity underway, and that is a 
normal part of the process. That would be completed in 
approximately 15 to 18 months after the monies are received, 
and then we would be seeking full construction funding in out-
year budgets.
    Mr. Kingston. How much money does it save if you are doing 
it lump sum? And that is my last question.
    Dr. Knipling. If we were to phase it in, say, two phases, 
it would be at least 10 percent higher cost. And then if it 
were more than two phases over a number of years, we can 
probably, as a rule of thumb, probably add a 10 percent 
additional cost every year that it is phased or delayed.
    Mr. Kingston. Thank you.
    Ms. DeLauro. Thank you, Mr. Kingston.

                          FOOD SAFETY RESEARCH

    I want to ask about food safety research, Dr. Buchanan, 
because I was interested in the proposal for an increase of 
more than $7 million for research into food safety issues and 
its relation to fresh fruits and vegetables. You spoke about 
14, but I must tell you that the budget justification here says 
an increase of $7 million for food safety research. I will wait 
to see what else has been lumped into food safety research, but 
I am troubled about that.
    Let me ask--I will give you a chance to answer--but the 
budget justification talks a lot about E. coli and salmonella. 
Would your work focus primarily on those pathogens? What about 
other pathogens?
    Dr. Buchanan. First let me say that our commitment to food 
safety research in 2008 is some $130 million. And of course, we 
are proposing a substantial increase, particularly in CSREES. 
Dr. Hefferan?
    Ms. DeLauro. We are talking about ARS at the moment. 
Correct?
    Dr. Buchanan. ARS is almost flat. But we have replaced--
eliminated some earmarks. Dr. Knipling, do you want to comment 
on that, the earmark situation?
    Dr. Knipling. Well, I think we are kind of mixing up 
different categories of numbers here. But----
    Ms. DeLauro. We are. But when Dr. Buchanan spoke about food 
safety research in his opening remarks, he talked about $14 
million. We have a budget document here that says we have got 
$7 million for food safety research. And I will tell you 
further, I see you are only showing a net increase in 2009 for 
food safety research of $1.267 million rather than the $7 
million that you are requesting.
    So if you can, I really would like you to explain to me 
what we are spending for food safety research. And then I would 
like to get to the questions on what are you going to spend 
that on in terms of the pathogen.
    Dr. Knipling. With respect to ARS, we have an ongoing base 
program across the United States of about $85 million in food 
safety, all aspects of food safety--meat, poultry, produce, 
pre-harvest, post-harvest, a whole array of different 
pathogens.
    With respect to the fiscal 2009 budget request, the ARS 
proposal does call for a $7 million enhancement. That is in 
fact a reallocation of existing food safety research from lower 
priorities to the higher priorities and in fact would address 
those issues you mentioned--E. coli, pre-harvest----

                         E. COLI AND SALMONELLA

    Ms. DeLauro. Are you going to focus primarily on E. coli 
and salmonella?
    Dr. Knipling. Those would be the principal pathogens, 
particularly E. coli as it affects produce, to address both 
pre- and post-harvest. There is a portion of that $7 million, 
roughly $1 million, that would deal with the so-called 
antimicrobial resistance that is developing in swine and dairy 
from the use of antibiotics.
    Back to the $14 million. That broadly lumps some 
enhancements in support of homeland security research. In terms 
of pathogen reduction, it would be $7 million.
    Ms. DeLauro. Now, was your research proposal developed in 
consultation with the FDA?
    Dr. Knipling. Yes. Very much so. We have worked very close 
with FDA for the--well, over many years, but certainly in the 
last two years with respect to the spinach and lettuce issues. 
FDA, as you know, has regulatory responsibility over produce.
    Ms. DeLauro. Yes, I do. Right.

                        HUMAN NUTRITION RESEARCH

    Let me also talk about research at ARS. I was glad to see 
nutrition research, an increase for nutrition research. It is a 
little bit disturbing to see that most of the increase would go 
to research after the fact, and this is the effectiveness of 
the Dietary Guidelines for Americans, also known as My Pyramid, 
which were released in 2005.
    Just cart before the horse here: Shouldn't this work have 
been done before the guidelines were issued?
    Dr. Knipling. It is an ongoing process. Of course, the 
guidelines have been issued every five years since 1990, the 
last set in 2005 and the next revision in 2010. So the 
guidelines continue to use the latest scientific understandings 
and advancements. So it is a rolling process.
    Our proposal for 2009 is in fact to do several things. One 
is to verify and validate the guidelines that are out there 
now, but also provide a foundation for updating the guidelines 
in 2010. But even then that will be a continuing process for 
future ones.
    One of the primary concerns with the guidelines is that 
many Americans are not following the guidelines and that would 
be a part of the study as well, to understand some of the 
behavioral patterns as to why Americans are not following the 
guidelines, and to develop a cross-sectional study among all 
population groups.
    Ms. DeLauro. My time is up, but let me just make these 
couple of points which I think are important.
    Last year ARS proposed an increase of $6.9 million for this 
same work on dietary guidelines. The 2008 budget justification 
said, ``The guidelines''--this is the quote--``have never been 
tested to assess if the expected health benefits accrue.''
    You proposed an increase of $6.9 million last year for the 
same research. This year you are requesting $9.7 million for 
the same work. I will hold the question of why the cost has 
gone up so much because I am mindful of my colleagues. But also 
just let me note that the 2009 and the 2008 budget 
justification contained word for word the same description of 
what you would do with the increase.
    So I am laying the question out. I am not going to ask you 
to answer it now, but I will ask you: We have gone from $6.9 
million to $9.7 million for exactly the same thing. Why has it 
gone up?
    And I yield now to Mr. Latham.
    Mr. Latham. Thank you, Madam Chairwoman.

                NATIONAL VETERINARY MEDICAL SERVICES ACT

    Dr. Buchanan, Congress has given you about $2 million to 
develop a loan repayment program for veterinary student 
graduates who get their degrees and agree to practice in 
underserved areas, especially large animals. And you have 
transferred some of those dollars to FSIS, but you haven't yet 
created the program that was intended under Congress's mandate 
with the appropriation.
    I just wondered where you are. Are you going to ask FSIS to 
pay back money that was never, ever meant to just be 
transferred out of the department without actually establishing 
a program?
    Dr. Buchanan. Well, first, as you know, we have had a 
number of meetings. In fact, we had a hearing on this just the 
other day. And----
    Mr. Latham. Where was that? In the ag committee? 
Authorizing committee?
    Dr. Buchanan. The Ag. Subcommittee on Livestock, I believe. 
And there of course is perhaps a bit of a misunderstanding, but 
when we developed that approach, the original legislation, I 
think, provided for three different categories: for 
veterinarians in rural areas; it also provided for 
veterinarians for underserved areas of veterinary science, such 
as in food safety and health and that area; but also in 
underserved areas in the Federal Government.
    In trying to identify what was the most effective way that 
we could allocate funds, we chose the route that we did have 
the mechanism to use. We identified these areas, and of course 
the proposal that we had would cover two of those. It would 
cover food safety; it would also cover underserved areas in the 
Federal Government. We thought that that would certainly be a 
way because we don't have mechanisms within any of our agencies 
for loan repayment programs. This is a system we would have to 
develop.
    But the upshot of it, after the hearing the other day, is 
we agreed that our staff would work with your staff to identify 
the best way to move forward. And I made a commitment that 
certainly we would try to find a way to accomplish the 
objectives that you have laid out in the future.
    I have gotten information that of the money that has been 
identified for FSIS, only $150,000 of that has been committed 
for five vets over the next five years, and those are food 
safety inspectors at FSIS. And they are to be identified for 
use in areas that are in rural parts of the country.
    Mr. Latham. If I could--are you paying off student loans 
with those vets, or are you just hiring more vets?
    Dr. Buchanan. No. These are students who were hired by 
FSIS.
    Mr. Latham. I know. But are you paying off their student 
loans?
    Dr. Buchanan. Yes. Yes.
    Mr. Latham. To go and work in FSIS? Okay. You understand 
the purpose of the money was to go into underserved areas, and 
no one--the intent that I have ever heard of wasn't to give 
more money to FSIS to hire.
    Dr. Buchanan. But we are not going to give any more, 
because we are now trying to identify what is the best way, 
working with the staff, to see what is the best way to 
accomplish the objectives that Congress wants us to do.
    Mr. Latham. This has been going on--what, this is the 
third, fourth year now?
    Dr. Hefferan. This is the third year.
    Mr. Latham. The third year, and we still don't have a clue 
as to what we are doing. Is that correct?
    Dr. Buchanan. Well, no. I would say that we are making 
progress and that we have finally identified that you are most 
interested in the rural areas, not necessarily the other two 
areas that were identified in the original legislation. So we 
are making progress, I think, Congressman.
    Mr. Latham. Do you know how frustrated--I mean, really, it 
is very clear, the intent----
    Dr. Buchanan. I understand, sir.
    Mr. Latham [continuing]. Of what we are trying to do. 
Everybody in vets today want to do small animal practice. That 
is where the money is. It is very difficult, and the growth we 
have in livestock today, to get them out into rural areas.
    Dr. Buchanan. Of course, as you know, we had proposed 
different proposals to try and accomplish that. And I think you 
are right in that there will be a challenge to get people that 
have interest in small animal companion pets to really work on 
hogs and cows. I understand that.
    Mr. Latham. That is why we did it. Right.

            EQUIPMENT FOR THE NATIONAL ANIMAL DISEASE CENTER

    I guess one other--a lot of areas to go. But on the 
National Animal Disease Center at Ames, there was a request in 
the 2008 submission for funding for equipment at the lab there, 
which was not funded. There is no request this year for 
equipment. Is there a reason for that? Somehow did we find 
equipment there that was funded, or what?
    Dr. Knipling. No. We did not get that funding, as you said, 
and we don't have the equipment, either. Of course, our budget 
guidelines for 2009 was different than they were, so it is a 
different situation. So we had to respond to the situation as 
it now exists for next year. So that equipment need for both 
ARS and AFIS is still a need.
    Mr. Latham. So the fact of the matter is we have spent $462 
million on that facility in the past to modernize the whole 
facility, but we can't get a small amount of money, or no 
request for a small amount of money, to put the equipment in 
for them to do their job?
    Dr. Knipling. We will have to use existing resources, to 
the extent they are available at the location, to do that 
piecemeal. Yes.
    Mr. Latham. Thank you, Madam Chairwoman.
    Ms. DeLauro. Thank you. Mr. Bishop.

                      1890 RESEARCH AND EXTENSION

    Mr. Bishop. Thank you very much. Let me welcome the panel, 
especially my friend, Dr. Buchanan. I have got a couple of 
areas of inquiry. I am going to do the one that is closest to 
my heart first, and then I want to go to the second one. And 
that has to do with the 1890s extension and research.
    The President's budget for the 1890s extension is down from 
$35,205,000 in fiscal year 2008 to a requested amount of 
$34,073,000 in 2009. Can you kind of explain to me the 
justification for the decrease? I don't understand why we are 
decreasing extension activities for the 1890s land grant 
institutions when these schools have historically had problems 
competing in the extension arena because of a lack of--the 
disparity in allocation of resources. And we have been trying 
to correct that to catch up.
    The President's budget also includes a decrease for the 
Evans Allen program, I think for $38,331,000, down from 
$41,051,000. Why are we decreasing funding for these 
institutions when they have historically been shortchanged and 
we are trying to bring them up to par?
    Dr. Buchanan. Well, first, Congressman, thank you for your 
question. And certainly I agree the 1890s play a very vital 
role in the agricultural research, education, and extension 
process in this country.
    And I am going to ask Dr. Hefferan to explain exactly the 
numbers. But clearly, there are a number of categories in which 
we have strengthened the 1890 programs. But the specific 
numbers for the decrease, Dr. Hefferan, do you want to comment 
on that?
    Dr. Hefferan. Yes. The numbers that are requested in this 
year's President's budget are the same as requested in last 
year's President's budget. Of course, there has subsequently 
been an appropriation action that increased those allocations. 
And the difference that you are citing is the difference 
between the final 2008 appropriations and what we are 
requesting for 2009. And those essentially in the President's 
budget are flatlined from the previous President's budget.
    We have of course been working very hard with the 1890s to 
expand their participation in a number of programs, and again 
are seeking funding for the--sorry, funding allocations from 
the EFNEP, the Expanded Food and Nutrition Education Program, 
to include the participation of the 1890 institutions.
    And just yesterday and today we are meeting with 160 
researchers from the 1890 community in Memphis to talk about 
the keys to success in our competitive grants programs. We 
found that when the 1890 institutions choose to compete in the 
National Research Initiative and in other competitive programs, 
they are as successful as other institutions. And we really 
want to encourage their growth and competition in those 
programs.
    Mr. Bishop. Thank you. I appreciate that. But I do want to 
let you know that I and I know Mr. Jackson and others in the 
Congress have a very, very keen interest in the well-being and 
the growth of the 1890s institutions. And we would like to see 
an equally keen interest on the part of the department.

                      ARS WATKINSVILLE LABORATORY

    My second question has to do with the ARS facility in 
Watkinsville, Georgia. That facility is slated for closure in 
the President's proposal, and the reduction in operating 
expenditures will certainly save some money. Is USDA going to 
consider moving the professional scientists and their teams to 
another ARS facility in the state as a unit to continue the 
research that they are doing?
    And also the farm there has been used for ag research, and 
of course the University of Georgia College of Agricultural and 
Environmental Sciences has partnered with ARS on projects in 
the past, and it has an adjoining farm next to that ARS 
facility that is slated for closure. Is the USDA going to 
consider, ARS going to consider, the farm being used by the 
University of Georgia for continuing that research?
    I would hate to see the property lost to development so 
that we got mansions being built out there when available 
agricultural research land is really dwindling because of the 
development. Now, probably more than ever, we really need to 
have that agricultural land and we need to preserve it.
    Dr. Buchanan. Well, let me make a general comment and then 
I will ask Dr. Knipling to provide more detail.
    But clearly there are established procedures when we do 
close facilities that we follow. And when we have property that 
is no longer needed, we have specific procedures that have to 
be followed for disposal of government-owned land. So Ed, do 
you want to amplify on that?
    Dr. Knipling. With respect to your first question, the 
staff at Watkinsville, we do not have a plan to relocate them 
intact as a unit. But we systematically look at programs 
elsewhere in the agency that are not impacted by the budget 
process where we have vacancies that fit the qualifications of 
those staff, and we would give priority placement to those 
employees, scientists and support personnel alike, in other 
programs.
    If we are not able to place them, again we go through 
prescribed sequential procedures to offer incentive programs--
early out retirement, buyout, and so forth. Certainly the last 
resort would be separation.
    Regarding the facilities, as Dr. Buchanan said, we go 
through prescribed procedures. We actually turn the Federal 
properties over to the General Services Administration, and 
generally speaking, they would offer it to another Federal 
agency if there was a need for it; if there is no interest 
there, State agencies, and I presume that could include the 
university; and then our local government agencies. But that is 
the prescribed procedure. I believe we have roughly 1,200 acres 
of land there on that site.
    Mr. Bishop. I mean, you don't have to pay taxes on the 
land. You don't have to do anything to maintain it. Could you 
lease it, have a low-cost lease on it, which wouldn't be a 
strain on the government, on your budget, would it?
    Dr. Knipling. Again, those procedures would be up to GSA to 
prescribe. But I doubt if there would be a lease, but I am not 
sure about that.
    Ms. DeLauro. Mr. Kingston.

                                 NAFTA

    Mr. Kingston. Thank you. Dr. Buchanan, there has been a lot 
of talk about NAFTA and kind of revisiting it. Can you tell me 
what benefits to the farmer NAFTA has brought?
    Dr. Buchanan. Well, first, again let me make a general 
comment, and I would like Dr. Smith to amplify on it.
    Clearly, exports are an important part of the agricultural 
portfolio in this country. In fact, I heard yesterday our 
exports are over $100 billion for this coming year, which is 
very substantial. And certainly anything that enhances, 
supports, and encourages exports is extremely important. And 
you want to give us some details about it, Kitty.
    Dr. Smith. Sure. NAFTA is directly responsible for 
increasing agricultural exports from the U.S., unequivocally. 
Thirty-seven percent of the increase in agricultural exports 
from 1993 to the present has been due to Canada and Mexico 
importing more U.S. products.
    The trade is complementary. It benefits the partners as 
well as it does the United States, so that, because we have 
different products to produce. They are different, so we trade 
with each other and both benefit. And agricultural trade with 
NAFTA countries has stimulated positive, although fairly 
modest, employment growth in the U.S.
    Mr. Kingston. So should we modify NAFTA or is--you say it 
has been very good for agriculture, 37 percent increase.
    Dr. Smith. Should we modify it?
    Mr. Kingston. Well, there has been a lot of discussion of--
people say, let's fix NAFTA.
    Dr. Smith. It certainly would depend on the modifications. 
But there isn't a problem identified that would warrant it. 
Even the environmental benefits are positive, as we had feared 
would be negative. They are not. They are positive.
    Mr. Kingston. So the case for NAFTA and its positive impact 
on agriculture is there?
    Dr. Smith. It is.
    Mr. Kingston. For the consumer as well as for the producer?
    Dr. Smith. Yes. Oh, yes, because they are getting cheaper 
imported food from those trading partners in NAFTA.

                        BIOFUELS AND AGRICULTURE

    Mr. Kingston. Let me ask you something. This committee is a 
great supporter of alternative fuel, but there has been a real 
pushback of corn ethanol being such a big mandate. And where 
should we go on that?
    And I will have my friend from Iowa  who may have a dog in 
that fight; I don't know--but there is concern of getting fuel 
from your food source, and also the fact that corn, for 
example, uses a tremendous amount of energy, nitrogen and so 
forth.
    And I was just--have we set too high of a mandate to use 
corn? And I am an alternative fuels guy with this committee, 
but this is not--it would be good to kind of have a discussion 
here.
    Dr. Smith. I think the jury is out on what the long run 
implications are going to be. Certainly the switch to producing 
fuel has some impacts on food prices, though not----
    Mr. Kingston. Some impacts? Didn't groceries go up about 5 
percent last year?
    Dr. Smith. They did, and we are projecting them----
    Mr. Kingston. And how much of that was because of fuel?
    Dr. Smith. How much I can't tell you exactly. But a lot of 
it, the majority, was probably due to droughts in Australia and 
New Zealand, and weather patterns worldwide.
    Mr. Kingston. I think that is Iowa. They have put those 
droughts over there.
    Dr. Smith. But we are projecting another 4 percent 
increase.
    Mr. Kingston. Now, we see articles that say relying so much 
on corn as a fuel source is really irresponsible. Just tell me 
if that is right or wrong. I am not trying to put you against 
somebody from Iowa, but I just really--I am genuinely 
interested in this, as I think all of us are.
    I have noticed no one else on the panel is volunteering to 
answer the question. You all are just going to let her dangle 
out there, aren't you?
    Dr. Buchanan. All right. Let me take a stab. I am convinced 
that we have entered into a new paradigm in agriculture. That 
means that in the past we thought of agriculture as food, feed, 
fiber, and flowers. Today agriculture is food, feed, fiber, 
flowers, and fuel or energy. And I don't think we are ever 
going back to where we were five years ago. I think we are 
simply going to look to the future as energy is a part of the 
portfolio of agriculture.
    Another point is I don't think we are ever going to see 
cheap oil again. And if all of those facts are true, then 
clearly we have the importance of agriculture being involved in 
the energy picture. Corn was the first choice, and I have read 
all the articles, just as all of you have, about the negative 
side of using a food crop for fuel. But this is what we could 
do.
    And this is the first step. I don't think anybody really 
believes that this is going to be the final step. I think corn 
is what we are using now, but there is a lot of work going on 
in a lot of parts of the Federal government, and every 
university that I know of is also working, looking at trying to 
develop cellulosic ethanol. And that certainly would take some 
pressure off of the emphasis of a food crop.
    But Congressman, I think we are just beginning. And this is 
why it is such a high priority in our mission area as well as 
in other parts of the Federal government to find other ways to 
make ethanol  or biofuels, I should say. The question a while 
ago about biodiesel is very relevant and very important.
    But I think that the important point is that we have to 
look at all opportunities to develop the--to address the energy 
security picture. It is going to take ethanol. It is going to 
take biodiesel. It is going to take conservation. It is going 
to take everything you can think of, as well as all aspects of 
renewable energy.
    The conference that was held here in D.C. last week was a 
tremendous event, and there was a number of good presentations 
about the whole spectrum of the energy picture. This is why a 
year ago we started in our mission area to identify what is the 
plan for our mission area. And we started by holding a 
conference and inviting representatives of all of our agencies, 
as well as universities from around the county, to develop a 
strategic plan to develop the energy picture from our 
perspective.
    And I am pleased to say that that plan is essentially 
finished. It is in final review now and should be issued within 
the next few days. It lays out our goals as to what we want to 
try to do to help address the President's initiative of 
achieving energy security.
    So the questions you ask, I think every part of the country 
is going to have a role to play. Right now Iowa and the Midwest 
is in the driver's seat because they produce corn. But I am 
going to tell you, they don't produce many pine trees in Iowa. 
We produce a lot of pine trees in the Southeast. We produce 
other things. The Southwest has potentials that we don't have.
    So I think every part of the country is going to be 
involved in the energy picture, and I am getting on a soapbox. 
I will get off of it.
    Mr. Kingston. Thank you.

                          STAFFING REDUCTIONS

    Ms. DeLauro. Dr. Buchanan, let me ask a question about 
staffing cuts. The budget shows 211 fewer staff years in 2009 
than in 2007 and 2008. It also says that 700 employees would be 
affected by the proposed lab and facility closures. It 
estimates the cost for their relocations and terminations, and 
for disposal of assets at ARS sites, to be about $30- to $50 
million.
    You say you would need reprogramming or a supplemental to 
cover those costs. I must say, and I know that this was 
probably not your doing, that the budget should have shown 
those costs. Let me just give you a for instance.
    In the final 2007 bill, we had no earmark. And this meant 
that some accounts in the NRCS--this is not your jurisdiction--
they were zeroed out, just as the administration had proposed. 
But the agency was shocked, had to scramble to be able to cope 
with this effort. And when we asked why, they said they never 
expected anyone to actually do what they proposed.
    Do you have a plan to carry out what you propose?
    Dr. Knipling. Yes. The proposed budget reductions and 
terminations in ARS do affect approximately 700 positions and 
employees. Perhaps a few of those are actually vacant at this 
time, but it is still close to 700.
    We really don't know for sure at this point how many of 
that staff would be relocated because of some of those other 
procedures I spoke about earlier that would offer other 
opportunities.
    But yes, the estimated cost, if all of them were to sever 
or relocate, as the case might be, is in the $30- to $50 
million range. And no, we have not requested that in this 
budget. We would have to deal with that at the time, and 
perhaps request reprogramming authority from this committee to 
use other agency existing resources to do that.
    Ms. DeLauro. Don't you think that the budget should have 
reflected those costs so that we have an accurate picture of 
what is happening here? Or do we just say, well, it is not 
going to happen and therefore we shouldn't have to worry about 
it now?
    It is a little bit like a campaign I was once involved in. 
We said, we are going to jump off that bridge when we get 
there. Literally, it was a campaign slogan in a campaign I was 
involved in many, many years ago. And we are going to jump off 
that bridge when we get there.
    Dr. Knipling. Well, we did make specific mention of this 
issue and the estimate of costs in the explanatory note so it 
would be visible. But no, we did not request those funds in the 
budget.
    Ms. DeLauro. And we have no plan. We have no plan for how 
to deal with these 700 employees.
    Dr. Knipling. Well, the plan would be to use existing 
agency resources. We would perhaps have to assess all of our 
other programs and seek reprogramming authority to use existing 
resources to do that once we knew the exact amount that would 
be involved.
    Ms. DeLauro. And then we will cut those programs. So that 
is what we have going on here.

                               BROADBAND

    Let me try to ask a couple of quick questions in my 
remaining time. This is ERS on broadband. Fiscal year 2008, the 
conference report provided $250,000 to research, deployment of 
broadband service to households with no or limited broadband 
access. Can you provide us with a summary of what you are 
finding on the economic impact of broadband service on rural 
communities?
    Dr. Smith. We have initiated the most comprehensive 
national study ever on who is using broadband services and how. 
And we are doing this in cooperation with the National Ag. 
Statistics Service. Following the collection of up-to-date 
data, then we will be able to determine the effect on services. 
We are going to compare similar counties that are similar in 
all ways except that and then be able to distinguish how it 
affects investment and development.
    Ms. DeLauro. When do you expect to finalize this report to 
help the Congress better evaluate policy options for being able 
to expand broadband and its access to rural areas and 
underserved areas?
    Dr. Smith. We should have a report about this time next 
year. But preliminary results will be available this fall.
    Ms. DeLauro. Thank you.
    Mr. Latham.

                                ETHANOL

    Mr. Latham. Thank you. Mr. Kingston and I have got the 
ethanol thing all figured out, so we are in total agreement. 
Right, Jack? Anyway, no, I just think----
    Mr. Kingston. We decided corn liquor is better yet 
[Laughter.]
    Mr. Latham. No. I think it is an unbelievable opportunity 
for places like Georgia, and with the cellulose part of it. But 
the one drawback is the lack of research to efficiently convert 
those wood chips and cellulose into ethanol.
    But I take strong opposition to any idea that it affects 
the price of food just because we don't lose any protein. I 
mean, food is protein. We don't lose the protein in converting 
corn into ethanol. We take the starch out. Anyway, we won't get 
into all that, Jack.
    A couple of things. Number one, and you probably don't need 
to elaborate too much. But there is a proposal to close the 
swine odor and manure management lab in Ames. That proposal 
stinks, as far as I am concerned. [Laughter.]
    And it is extremely important for livestock producers 
environmentally and everything else that we continue that.

                   IMPACT OF A CONTINUING RESOLUTION

    One thing that I have been asking in a lot of different 
subcommittees is the Senate basically has said that they might 
possibly do Defense appropriations, maybe Homeland Security, 
but there is no intention of actually doing anything else. The 
House will do all the appropriations bills.
    You get into a CR at the end of the fiscal year. We are 
probably--depending on what happens in November, there is 
probably a very good likelihood that we don't have any bills 
actually until March. What does that do to you?
    Dr. Buchanan. I would like each of the Administrators to 
talk about their specific agencies, and start with Ed. How 
would you deal with it?
    Dr. Knipling. Well, on one hand, having a continuation of 
what we now is a positive. But we are one year further down the 
road in terms of cost escalation.
    Mr. Latham. So you would like to see a CR?
    Dr. Knipling. It causes us to not have Pay Act covered and 
increased costs. It causes us additional stress. And what we 
find is all of our research units, regardless of their 
priority, are suffering from this. And we have had those flat 
budgets now for three years in a row.
    Dr. Hefferan. Well, certainly a CR is disruptive to the 
processes of moving money to universities and others, 
particularly with specialized grants. Certainly the case of 
earmarks is one where we don't have any basis on which to make 
awards, and so there can be continuity in programs that are 
programmatic.
    I think the biggest concern that we have--two concerns--is 
that all changes in the budget tend to be concentrated in a 
short period of time; and the ability of the agency, and more 
importantly, the recipients, to respond to those changes is 
truncated by that short period of time.
    And the other challenge is for all the parties involved, 
the ability to get the work done of actually managing the 
processes of moving forward with funds.
    Mr. Latham. If we were March, we would be six months into 
the next fiscal year. I don't know how you----
    Dr. Hefferan. It is very problematic.
    Dr. Smith. As Dr. Hefferan said, it takes time to spend 
money and the ways that you plan it. And if you don't have the 
full amount of time, you end up not being able to do----
    Mr. Latham. That is a news flash around this place.
    Dr. Smith. You can't do as good a job. If you have planned 
from the beginning of the year to spend money in a particular 
way and you get it midway through, it is difficult to 
compensate.
    Mr. Reilly. This year would have been difficult if the CR 
had gone a little longer for the Census of Agriculture. This is 
our peak data collection year, and we were very close to making 
a decision one way or the other at the end of December whether 
we had the funds to be able to do the census.
    Looking ahead to next year, the census data collection will 
have been completed and our funds start dropping back down. So 
the CR won't hurt us as much.
    Mr. Latham. Anything else? I am going to submit--I have got 
some people waiting--several questions to submit for the 
record. Thank you all very, very much, and I don't really mean 
to be such a bad guy with you guys. I really do appreciate what 
you do. But obviously, there is frustration. We want to see you 
do more better. Okay? Thank you very much.
    Ms. DeLauro. Thank you, Mr. Latham.
    Mr. Farr.

                        SALINAS VALLEY RESEARCH

    Mr. Farr. Thank you very much.
    Dr. Buchanan, I have always liked your attitude. You are a 
can-do guy and a thinker, and you pull it all together. And I 
really appreciate your prioritization coming before the 
committee.
    But let me just put something into perspective with you. 
You want to put more money into food safety, and particularly 
E. coli research. And the ground zero for E. coli research in 
spinach and lettuce is in the Salinas Valley.
    You are going to put money into bioenergy, and you have got 
some ongoing incredible--the only one in California that has 
been in biodiesel, and that is in the Salinas Valley.
    You are going to work on obesity and getting more money 
into figuring out how to reduce obesity, particularly in school 
children. And the only state and counties that have required in 
state law to have a nutritional program in schools is the state 
of California, and Monterey County has become the model for 
that.
    You are going to look at crop diseases, and we have not 
only diseases but pests that we have been battling that have 
been high priority--the glassy-winged sharpshooter, the LBAM, 
the verticillium wilt, and some other things.
    And you want to go into water reuse because the best 
management practices and the largest reclamation project in the 
United States on agriculture is in the Salinas Valley.
    It seems to me that all the things you want to solve are 
being done--and we have the largest monitoring and water 
quality and changing tilling practice, the best conservation, 
water conservation practices, and the largest organic growing 
area in the United States.
    It seems to me that there is a jurisdiction, a locality out 
there, where all of the things that you will put on the front 
lines of your highest priorities, that there is the ability to 
do that somewhere, to see how they are integrated. And yet, at 
the end of the testimony that Mr. Knipling gave, you said, ``In 
the fiscal year 2009 budget, we have a rescission of $67 
million under the buildings and facilities account. Under this 
request, unallocated appropriations from partially funded 
earmark construction projects''--Salinas Valley being one of 
them--``and funds from the unobligated balances of completed 
facilities are to be cancelled and returned to the Treasury. 
Limited budgeted resources should be allocated to fund a 
critical facility such as the Athens biocontainment laboratory 
and consolidated poultry research facility rather than spread 
them among multiple projects and less critical need.''
    How can there be less critical need when you have got an 
ARS station in Salinas that is working, now has the only 
organic researcher, and it has the viticulture research 
program, and it has the sugar beet research program, and it has 
the integrated pest management and methyl bromide research--I 
mean, all of these things seem to come to a head in one of your 
research stations, which is--it is World War II Quonset huts. 
And rather than complete that project, you want to take the 
money out of that and put it in Athens.
    What Mr. Kingston and I--we want a win/win here. The 
University of California, under their new leadership, under new 
management, is coming in, last week was in my office, and said 
they are willing to put some money on the table in Salinas 
because they want to partner in the building. They want to 
partner.
    Now, if you are pulling out, then what I want to do is get 
that research facility built. And if you are going to do all 
these priorities, you are going to have to go to Monterey 
County because they have the experiences in an awful lot of 
these areas that you have just said are the most important 
issues in the nation.
    And that facility, it should be one of the exciting front 
line facilities. And instead, you want to cut the money out and 
put it all into Athens.
    Dr. Buchanan. Let me respond, and I will let Dr. Knipling 
respond.
    This is the frustration that we have in setting priorities. 
Because we set the priorities because the only real facility we 
have in this year's budget at ARS is the poultry lab. It is 
important because poultry is a critically important part of 
agriculture in this country. We are one of the world's leaders 
in poultry, if not the world's leader. We also have some real 
challenges.
    Mr. Farr. But it is a biocontainment laboratory. So why 
isn't Homeland Security, why isn't the Department of Health, 
why aren't they all putting some money into this? It is in 
their interests, too. Why should it be on your back?
    Dr. Buchanan. I can't answer that one. Can you answer it, 
Ed?
    Dr. Knipling. Well, let me start with acknowledging 
certainly the importance of the issues you have raised. 
Certainly Salinas and Monterey County are a very important 
agricultural area. And we have many important areas across the 
country.
    Mr. Farr. And they do without any subsidies, either, water 
or any kind.
    Dr. Knipling. Yes. Regarding the facilities, over the last 
several years the National Centers for Animal Health at Ames 
that Congressman Latham spoke about earlier, has been the 
agency's and the department's highest priority because of the 
concerns of animal health and the renewed concerns of potential 
counterterrorism or terrorism threats since 2001.
    The Athens facility, the biocontainment for avian 
influenza, has emerged as the second highest priority for the 
agency and the department. And it is clearly within ARS's 
mission to do----
    Mr. Farr. Well, but look. There are other kinds of 
resources that can be pulled to that if it is as critical as 
you say, and I think it is. And I am not trying to degrade from 
the importance of those. But I do think that the only school 
that teaches a masters degree in homeland security and 
beginning to move into food safety is in Monterey, California.
    So the conversions of all these issues is in an area where 
you are not investing in the research facility. And that is my 
point, is that you can't get there from here and answer the 
kinds of questions you want to do without modeling places that 
have had some experience in it.
    We have those experiences. We have the program. That is 
ground zero. Why aren't we investing, as we did in poultry and 
as we did in livestock, but do it in a place where you can get 
a big bang for the buck?
    And that is my point, and I am just really upset that you 
are not just championing the ARS facility in Salinas. You were 
supposed to be the cheerleaders for that. And in your 
testimony, the issues are there but not the money for the 
facility.
    Dr. Buchanan. Well, we do have major commitments to that 
facility, as we have identified. Let me talk about one other 
thing, too.
    Mr. Farr. Excuse me. What facility? The one in Salinas?
    Dr. Buchanan. The research program, yes, sir. We have a 
number of research----
    Mr. Farr. How are you going to research? They are in 
Quonset huts. You can't even put the equipment that they need 
in there because the buildings aren't electrically or otherwise 
can't hold the equipment.
    Dr. Buchanan. Well, of course, the nature of facilities is 
you can only ask for so many. And of course, we made the 
priority of the Athens facility. We propose to close a lab in 
Michigan and consolidate all of our poultry disease work at the 
Athens facility, at the southeastern lab. So----

                  REDUCTION IN FACILITY APPROPRIATIONS

    Mr. Farr. The testimony is you are giving $67 million back 
to the Treasury Department.
    Dr. Knipling. Yes. This was part of the overall budget 
allowance. And speaking for the whole panel here and all of the 
department, the 2009 budget does reflect curtailed Federal 
spending. It does reflect returning money to the Treasury for 
offsets outside of agriculture, even.
    The $67 million rescission is for some 17 different 
projects that are partially funded for which there is not 
sufficient money to move ahead with. And then given the new 
priorities of the avian influenza biocontainment----
    Mr. Farr. Right. So your testimony says, ``Unallocated 
appropriation, partially funded earmark construction 
projects.'' These aren't just research projects.
    Dr. Knipling. That is correct. This is in the building and 
facilities account. We have two accounts. What we call the 
salary and expenses, that supports our research programs 
themselves; and then a building and facilities account. So that 
rescission is from the building and facilities account.
    Mr. Farr. I would like to know exactly how much more money 
you need to get finished with the ARS building that you have 
designed and proposed for Salinas.
    Dr. Knipling. The total project is estimated at $68 
million.
    Mr. Farr. Phases. Right?
    Dr. Knipling. I think that is for all phases, although it 
would be some sub-phases that would constitute that total. A 
total of $12 million had been appropriated over several fiscal 
years, and this rescission affects about half of that, about $6 
million.
    Mr. Farr. So you need how much for the first phase? $20 
million? And you are going to rescind 12?
    Dr. Knipling. I don't recall the actual phase amounts. But 
the total would be about an additional $62 million.
    Mr. Farr. What are you going to tell the University of 
California when they walk in and say they are willing to put 
millions of dollars on the table to partner with you?
    Dr. Knipling. I don't know what we would say. Right now we 
don't have any matching funds, and we don't have the capability 
to match Federal and State funds for construction projects.
    Ms. DeLauro. Mr. Kingston.

                   PLUM ISLAND ANIMAL DISEASE CENTER

    Mr. Kingston. Thank you, Madam Chair.
    Dr. Buchanan, I am concerned about this Plum Island Animal 
Disease Center which the Department of Homeland Security is 
proposing to revamp and changing the location because there is 
discussion of allowing hoof and mouth research on the mainland 
as opposed to an island. I know that law has to be changed. 
Maybe it can be done through the Secretary's office. I don't--
you might be able to clarify that for me.
    But is the USDA working with DHS on that lab? And how much 
of a voice do you have? How much of a vote do you have? And 
then in terms of the risk between animal and human diseases 
regarding the CDC lab BSL-4 in Athens, Georgia, which seems to 
be a theme today--it has nothing to do with the other stuff we 
have been talking about--but how would that compare to Plum 
Island?
    Dr. Buchanan. Let me make a comment, Congressman, and then 
again, this is an ARS issue so I will let Dr. Knipling also 
comment.
    We have been working with Homeland Security. In fact, my 
counterpart, who I have met with on a number of occasions--in 
fact, we have been briefed. I know in the visits that they have 
made, we had representatives from ARS on the review panel for 
the sites. We also had a person from one of our mission areas, 
not our mission area, but another mission area in the 
department that was on the review committee that looked at the 
different sites.
    And I know my counterpart at DHS has made it abundantly 
clear that while the facility would be their facility, we would 
be a prime occupant of it because much of the research that 
would go on there would be ARS as it is at Plum Island at the 
present time. Even though when it was transferred to DHS, and 
they assumed ownership of the facility, ARS still continued to 
have a major presence there. And many of the personnel--what, 
65 percent, Ed-- are ARS people. Do you want to----
    Dr. Knipling. DHS will clearly have the decisionmaking 
authority on the site, but USDA has been very much involved 
with the entire process, to define the criteria and the program 
requirements that will have to be met by that facility to 
accommodate USDA programs.
    Both ARS and APHIS will be primary occupants of the 
facility along with DHS, so although it's their decision, their 
decision has to meet our criteria in terms of program 
requirements.
    Regarding the bio-safety level 4, USDA believes, Department 
of Homeland Security believe that a bio-containment facility 
that meets those standards, it is very safe to use those 
foreign pathogens on the mainland, and so in essence it would 
be the same as the bio-safety level 4 in Georgia, for human 
pathogens.
    Mr. Kingston. So you guys will be in on the decision on 
where to locate, definitely, even though DHS might have the 
lead?
    Dr. Knipling. Well, it'll be their decision, but they will 
seek our input. It won't be a vote.
    They will make the decision based upon our input, and we've 
been involved all along, and in essence, the six sites that are 
still open for consideration have already met the USDA 
criteria.
    But there is some ongoing environmental impact assessment 
activities, and so that additional information that arises from 
that will again be reviewed by USDA.
    Mr. Kingston. Could you send a letter to me updating me on 
where that thinking is?
    Because I know this is beyond the scope of this hearing, 
but I'd like to know more about where that decision is and what 
direction it's going in. I'd love to hear from you on it.
    Dr. Knipling. Yes, we can speak to the USDA role.

                             FOREST SERVICE

    Mr. Kingston. Okay. And Dr. Hefferan, I have a question for 
you. On the farm bill, why is it that the Forest Service is 
staying in the Department of the Interior?
    And I hold you personally responsible. [Laughter.]
    Mr. Kingston. I'd like to know why the Forest Service is 
staying in the Forest Department of the Interior, because we 
have the passion, we have the expertise on this committee, and 
Dr. Hefferan apparently is a big advocate of it.
    Dr. Hefferan. We certainly are an advocate of forest 
research.
    We have a substantial program through McIntire-Stennis and 
through our National Research Initiative.
    We also have a joint program this year which we're funding 
with the Forest Service research programs that will focus on 
genomics of conifer trees.
    So we have a lot of collaboration, a lot of work.
    I think maybe Mr. Steele or somebody else would be best 
able to answer your question to the degree of why this is--why 
the appropriations for the Forest Service come out of the 
Department of the Interior much more effectively than I ever 
could.
    Mr. Kingston. I would like to stump him on a question. That 
would be good.
    Mr. Steele. Well, I think it's a historical issue.
    I think it's tradition that it has been, you know, the 
Forest Service has reported to the Appropriations 
Subcommittees, and that would take, I think, a change in 
Congress to make a decision as to which.
    Mr. Kingston. Well, it would appear to me that that would 
be done on a farm bill.
    Mr. Steele. I don't think we would propose--I don't think 
the Federal Executive Branch would want to propose how Congress 
organizes its control over appropriations.
    Mr. Kingston. Just can't get that guy.
    Ms. DeLauro. It's always and ever about turf [Laughter.]
    Mr. Kingston. Well, the history may have been that the 
Interior, with BLM or something, had more trees than cultivated 
land or something?
    Mr. Steele. We'd have to provide that information for the 
record, if we could.
    [The information follows:]

                     Forest Service Appropriations

    The Act of February 1, 1905, established the Forest Service within 
the U.S. Department of Agriculture (USDA), and President Theodore 
Roosevelt named Gifford Pinchot the first Chief Forester. Questions 
soon arose regarding whether the Forest Service should be managed by 
USDA or by the Department of the Interior (DOI). On one occasion, Chief 
Pinchot offered the following explanation: ``In the Department of 
Agriculture, where they are now, the Forest Service and the national 
forests are safe, and so well managed that (except for certain special 
interests) they have won the unanimous support of the nation. Their 
purpose is to grow trees, and they belong naturally in the department 
which has to do with growing all crops, including tree crops, from the 
soil. Forestry is a part of agriculture and is so recognized the world 
around.''
    A reorganization of the House Appropriations Committee in 1955 
moved the responsibility for appropriating funds from the Agriculture 
Subcommittee to the Interior Subcommittee, starting with fiscal year 
1956. According to the Congressional Record, the intent was to prevent 
overlap among agencies administering public lands. The Interior 
Subcommittee already had jurisdiction over the appropriations for the 
National Park Service and Bureau of Land Management. With the 
reorganization, the Interior Subcommittee gained the Forest Service, 
the Smithsonian Institution, the National Gallery of Art, and a number 
of commissions. However, the Subcommittee lost other responsibilities, 
including the Bonneville Power Administration, the Southeastern and 
Southwestern Power Administrations, and the Bureau of Reclamation. 
According to one Interior Subcommittee member, ``If it were not that 
the Forest Service had been placed under our jurisdiction, I do not 
know what we would have taken care of.''
    Agriculture Subcommittee Chairman Sam Rayburn continually expressed 
concerns regarding the shift, arguing that, ``This is an entering wedge 
to transfer the Forest Service from Agriculture to Interior. If it is, 
I certainly would regret it deeply, because I think this is a function 
of the Department of Agriculture and not a function of the Department 
of the Interior to look after our Forest Service.'' The Chairman was 
reassured by Committee members that the jurisdiction for the Forest 
Service was not placed in Interior, only the appropriations, which 
would show the Forest Service as a related agency to DOI. The budget 
request would go through the Secretary of Agriculture, and funds would 
go directly to the Department of Agriculture and would not be 
administered by the Department of the Interior. Appropriations hearings 
would be held by the Interior subcommittee, but the Forest Service 
would be represented at the hearing by an Assistant Secretary of 
Agriculture.

    Mr. Kingston. Yes.
    Mr. Buchanan. I would say one thing, that we do have a lot 
of collaboration with forestry, so a lot of our research 
programs are very much interconnected, so we talk all the time.
    So we do work together, very effectively.
    Mr. Kingston. Well, thank you.

                           FACILITY CLOSURES

    Ms. DeLauro. Just let me see if we can get from you, in 
terms of the closing of the labs and facilities, if you could 
tell us what were the criteria on which these decisions were 
made to close these particular areas and where, in terms of the 
criteria, where these various facilities and laboratories fit, 
in terms of, you know, in your decisionmaking process.
    It also would be helpful, as a separate item, to Mr. Farr, 
that, as well the criteria on these construction areas, as 
well. That would be helpful to us.
    [The information from USDA follows:]

    Criteria for Proposed ARS Base Program Reductions and Redirections: 
(One or more apply to each location, program, and/or activity 
identified for closure or redirection.)
    <bullet> Marginal or below threshold funding for leveraging program 
viability and sustainability.
    <bullet> Programs are mature and objectives mainly accomplished, 
diminishing returns and impacts from continued research.
    <bullet> Lower priority research; have not been priority-funded 
initiatives by either Administration or Congress.
    <bullet> Disproportionally high and/or inefficient operating costs 
when considered in context of value and priority of research.
    <bullet> Redundant or duplicative capacity; research is also 
underway and/or can be done effectively and efficiently elsewhere in 
ARS.
    <bullet> Facilities inadequate and/or modernization/maintenance 
costs are prohibitive and involve out-year cost liabilities (a cost 
avoidance criterion).
    <bullet> Programs are not mainly research and therefore are outside 
or tangential to ARS core mission and program responsibility.
    <bullet> Low customer and stakeholder interest and support.

                         VETERINARIAN SHORTAGE

    The other thing, I would like unanimous consent to enter 
into the record this newspaper article which has-- references 
what Mr. Latham was talking about.
    It's an article from the New Haven Register, Sunday, March 
9, 2008: ``Food Experts Worry as Demand Grows for Livestock 
Vets.'' A very appropriate article, given the nature of the 
discourse.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeLauro. Thank you, Dr. Smith, on the broadband effort, 
because I think that is going to be a very, very helpful 
document.
    It looks like it's a very expansive study, and in depth, so 
I think we look forward to that.

                            TOBACCO RESEARCH

    Let me move to some questions with regard to that, and this 
is another ARS question, that I understand the ARS recently 
stopped gathering, updating, and disseminating key information 
on tobacco, tobacco products, tobacco use.
    This information was provided in the past, it was important 
for Congress researchers, policy analysts, and others who are 
trying to understand the tobacco industry, the tobacco use in 
the U.S., or trying to develop effective ways to prevent and 
reduce tobacco use and its many harms.
    Of course, much of the information simply is not publicly 
available from any other source, much less in any convenient, 
readily accessible form.
    For a few examples, no one other than USDA's ARS service 
has in the past publicly provided comprehensive information on 
the consumption of cigarettes and other tobacco products in the 
U.S. along with information on amounts manufactured, exported, 
imported, and taxed, that on such things as the average prices 
charged for cigarettes, the amount of U.S. versus foreign grown 
tobacco in American made cigarettes, and where each dollar 
spent on tobacco products goes.
    From what we understand, neither USDA nor any other 
government agency is working to ensure that this information, 
important information will continue to be collected, analyzed, 
and made publicly available in a readily accessible form.
    Given, in my view, its critical importance and the small 
related costs, I want the department to go back to collecting, 
developing, and disseminating this information.
    Can you give us your commitment today that the USDA will go 
back to doing this important work and making important 
information publicly available?
    Dr. Smith. It will be difficult to do that.
    The outlook program for tobacco was set up in order to 
serve the needs of the tobacco program, which of course has 
ended, and much of the primary data, especially that collected 
by the Foreign Agricultural Service, for foreign production and 
consumption, ceased, because they stopped collecting it after 
the tobacco program was eliminated.
    And furthermore, it's hard to find good ready-made tobacco 
analysts. Ours went to the legislative branch.
    And it would at least take a few years to train somebody to 
understand a very complex market, and we had no backup for that 
one analyst.
    But I'll certainly think about it.
    Ms. DeLauro. Well, I'd love to pursue that with you, 
because the data is important, just, you know, because of--you 
know, for all kinds of public health reasons, that is still 
ongoing. That's a dynamic situation.
    We may have ended, you know, that we've had the buy-up, but 
the need for the data and the information as we look to issues 
of public health are, I believe, critical, and this was, it 
looks like, the only source of data that exists.
    And so I would like to pursue that with you, to see what 
our opportunities are there.
    Dr. Smith. Okay.

                           RURAL DEVELOPMENT

    Ms. DeLauro. Let me try to see if I can get in, as I say, a 
quick question here.
    Rural development followup, Dr. Smith.
    You came up here, we talked about rural development, the 
conditions and trends and rural communities.
    I asked at that time to get your view of the movement in 
rural development, the evolution from grants and direct loans 
to loan guarantees, to get your view as to what that process 
and its effect on community facilities, on housing, on 
utilities, and on business development, the rural development 
budget.
    Again, we're looking at a budget that's come up here 
proposing to eliminate most of the grant programs and some of 
the direct loan programs in favor of guaranteed loan programs.
    What research has ERS done on this issue since the hearing, 
and are lower income rural communities able to repay loans to 
finance local environmental infrastructure, telecommunications 
services, and community facilities?
    Dr. Smith. Since those hearings, we have investigated the 
capacity of smaller communities to repay loans.
    It is the smaller and more isolated communities that have 
difficulty repaying the loans, and therefore, have depended on 
grants.
    We are following up to get some more specifics on the 
actual effects on infrastructure within those communities and 
their development potential.
    But the general conclusion is there is a large number of 
communities that can't guarantee that they can pay back even 
guaranteed loans.
    Ms. DeLauro. Dr. Smith, this is very relevant information 
as to how we move forward with this appropriations cycle, 
given, again, the scale of the elimination of the grant 
programs, the direct loan programs.
    So I would like to have the information that you currently 
have and know what is still missing, et cetera, but this is the 
kind of very valuable information that helps us to make 
informed policy decisions that are not based anecdotally, but 
on substance and fact, so that we can really, truly have public 
policy that is assisting those communities that we are charged 
with trying to assist.
    Dr. Smith. I can get you a summary.
    [The information follows:]

    Since the hearing in the spring of 2007, ERS has committed to 
obtaining Bureau of the Census Consolidated Federal Funds Report data 
and assigning staff to summarize the data, update the information 
annually, and make the findings available on the ERS Web site. ERS will 
aggregate the data to reveal the urban-rural distribution of Federal 
fundings, and summarize the information by selected characteristics of 
counties, program function, and type of payment. Preliminary findings 
indicate that poor rural (nonmetro) counties generally receive more 
grants and direct loans, and fewer guaranteed loans than rural counties 
in general.

    Ms. DeLauro. Thank you very, very much.
    Mr. Kingston.

                      OBESITY PREVENTION RESEARCH

    Mr. Kingston. Thank you.
    Dr. Knipling, question in terms of PE for life, which has 
broad bipartisan support around here.
    It's about, you know, physical fitness programs in schools 
and getting kids to basically commit, to understand that 
exercise and eating right is a lifetime commitment.
    The ARS has $12 million for obesity prevention, but don't 
we already understand what's making kids obese?
    And isn't it time maybe to quit studying it and do 
something more than what we're doing about it?
    And it almost seems like we're spinning our wheels here. 
We've identified a problem and we're pointing it out and we're 
trying to educate people, but I don't know if we're getting 
anywhere with it.
    Dr. Knipling. There are so many variables, and in fact, I'm 
not sure we always understand the dynamics of food consumption 
and weight gain among different population groups, age groups, 
income groups, and so forth.
    Some of it's certainly behavioral research, along with 
biological research.
    We need to get that sound base of information for policy 
making, and to develop the appropriate guidelines and 
interventions.
    And so that's what this $12 million enhancement for obesity 
prevention, and it goes back to what we talked about earlier, 
validating, verifying the guidelines as they're now used by 
different groups, and a basis for improving the guidelines, but 
then also improve those interventions, so to speak.
    There will also be one component of that that does address 
the relationships between nutrition, eating, and exercise.
    Mr. Kingston. Can you tell me some success stories here?
    I mean, it just really sounds like, yeah, we're going to 
study obesity, because that's a safe thing to say you're going 
to spend money on.
    But do you have any success stories where you can say--I 
mean, we've been studying obesity for years.
    Do you have any success stories to say this particular 
pilot program in this particular area has really shown some 
good results?
    Dr. Knipling. I'm not sure I do have a good example.
    We have worked in the Mississippi Delta with a program in 
Arkansas, Louisiana, and Mississippi, through an intervention 
program, and that in fact has not yielded the response that we 
had hoped for. That's been going on for 10 years.
    And in fact, that program, although it will continue, will 
in fact kind of go back to some of these basics, to understand 
what in fact Americans are eating in these different groups, to 
get that fundamental understanding.
    Mr. Kingston. We've been studying this for years, though.
    I mean, it just seems to me like at this point you would 
say, hey, you know, we've gone as far as we can go, maybe USDA 
ought to get out of it and let the Department of Education do 
it, maybe it should be all done through state grants, maybe 
it's only education, not research, maybe it's all research and 
not education, maybe we should be pursuing some magic pill.
    It seems to me at this point USDA ought to be able to say, 
here is what we're finding to be effective.
    Dr. Knipling. Well, the obesity part of our program, 
prevention part of our program is, in fact, a relatively new 
dimension to our human nutrition research, and we have not 
focused on that in the past.
    And we do not believe, do not agree that we know everything 
we need to know. We in fact need to know much more about----
    Mr. Kingston. We know enough.
    Dr. Knipling [continuing]. Behavior.
    Mr. Kingston. We know enough to get somewhere, should we as 
a society choose to.

             EXPANDED FOOD AND NUTRITION EDUCATION PROGRAM

    Mr. Buchanan. Let me comment, too.
    We have programs as to research and education. The EFNEP 
program by Dr. Hefferan is one that really works with a group 
of people that really need help, and how do they use the food 
they have in a more efficient way.
    So it's like many things in research. We know a great deal 
about the whole area of obesity as well as human nutrition, but 
there's new things that's found every day.
    I was up at our nutrition lab in Boston, what's the name of 
the place--and saw where they were doing work on finding more 
effective ways of things that blueberries do for human 
nutrition.
    So while there's a lot known about obesity, there's a lot 
known about nutrition, there's still a lot more yet to be 
learned.
    But I'd like Dr. Hefferan to comment on the EFNEP and how 
it impacts on this whole issue.
    Dr. Hefferan. Well, certainly the Expanded Food and 
Nutrition Education Program, which is almost 40 years old, has 
been one of the most effective intensive nutrition education 
programs, and I'll give you one example.
    In a study of the long-term impact of the program, 
participants in the program showed an increase of more than 
one-and-a-half servings of fruits and vegetables per day, 
probably the best bellwether for diet improvement of any 
measure we have.
    I will also say that the cooperative extension system 
between the U.S. government, and the universities, and local 
levels supports and implements the Food Stamp Nutrition 
Education Program through agreements with the Food and 
Nutrition Service as well as EFNEP, as well as a variety of 
other programs that involve partnerships with organizations 
such as the Walk Across a State movement, Walk Across Kansas, 
Walk Across Connecticut, walk across your State, and other 
physical fitness programs, because clearly the research that 
the universities have supported and certainly ARS shows that 
long-term nutritional health is a combination of good eating 
patterns and physical activity.

                                OBESITY

    Mr. Kingston. Do you have any idea of the percentage of 
people who are on food stamps who are obese?
    You don't have any numbers on that?
    Dr. Hefferan. I don't know.
    I believe the Food and Nutrition Service would have that 
information, and certainly the ARS has.
    Mr. Kingston. Do you know what they are offhand? Could you 
provide that to me?
    Why should food stamps have on its allowed list junk food?
    Dr. Hefferan. Well, I certainly can't answer that question, 
but I will tell you that there have been some recent analyses 
that have shown that the incidence of obesity is not coincident 
with food stamp receipt.
    There may be other corollary factors, but receiving food 
stamps does not lead to obesity. There's no causal effect.
    It may well be an education issue, it may be.
    Mr. Kingston. Well, that's what I'm getting at, if there's 
an education opportunity that we're not taking advantage of by 
allowing, say, potato chips, or a particular product, maybe not 
potato chips----maybe, maybe not--that have no nutritional 
value, and we're allowing it to be something that on food 
stamps people can have, you're not using that opportunity to 
educate people.
    Dr. Hefferan. Well, again, the Food and Nutrition Service 
can address this more effectively than I can, but I will say, 
while the Food Stamp Program allows recipients to purchase a 
very broad range of foods, programs that are focused on women, 
children, and infants and children have a particular market 
basket of foods which emphasizes the kinds of nutritional 
products that are needed to promote growth and development.
    And so the design of the programs does vary. Their purposes 
vary.
    And we certainly have found that, in all of these programs, 
having substantial educational components can have an effect on 
what people actually choose to eat in the programs, and then 
coupling that with education that links together physical.----
    Mr. Kingston. Are we missing that opportunity, though, on 
food stamps?
    Dr. Hefferan. Well, there is a Food Stamp Nutrition 
Education Program where there is a set-aside that's ranged from 
100 to 200 million dollars a year that is provided to 
contractors, the majority of whom are state extension programs, 
to provide that nutrition education.
    So there is an educational component, as well as other 
program.
    Mr. Kingston. And has that shown where that money is, has 
it shown to be effective and helpful?
    Dr. Hefferan. It's shown to be effective.
    I agree with the premise of your question, though. These 
programs are challenging.
    It's obviously a continuing need for research, a continuing 
need to evaluate what is effective in influencing what children 
eat.
    I think it's the reason that experiments such as the 
movement of healthy snacks, fruit and vegetable snacks, into 
schools have been so exciting for people, because they have 
shown that they change behavioral patterns.
    Basically, I think our message is that you need to work in 
partnerships with lots of public health and other citizen 
groups to be effective in nutrition education, and it does, 
there is great value in having that education research base.
    Ms. Smith. Mr. Kingston, a quick clarification for the 
record.
    What we have is the information on the probability that 
food stamp recipients are obese, based on sample data, so we 
don't have----
    Mr. Kingston. Well, I can see the cause and effect is not 
there, but what I'm just curious about is if you have an 
ongoing customer, so to speak, for example, and I know I'm out 
of time, but nowadays when you fly on an airline, they try to 
sell you a credit card.
    And, you know, it's not a bad marketing idea. You are a 
truly captive audience. So why not try to get everybody signed 
up for a credit card?
    And it would appear to me that if you have people on the 
food stamp program, you have an opportunity to educate them on 
nutrition and a need there, and maybe we're not capitalizing on 
that.
    Ms. DeLauro. Important to note that EFNEP, the 2009 budget 
will be cut by $3.2 million.
    Mr. Farr.

                    INTEGRATED FOOD SAFETY RESEARCH

    Mr. Farr. I want to comment, I think, Mr. Kingston.
    And Ms. DeLauro said that the frustration that we have is 
we have a panel like yours for the entire department of all the 
different agencies, and with the Food and Drug Administration, 
but where I find the frustration is that we have created all 
these stovepipes.
    One, the old issue about, you know, how the forestry 
department got into the Department of Agriculture, is one of 
those old stovepipes.
    But these stovepipes just don't, in the modern era, seem to 
want to get together to apply what we've--it's not so much that 
we need more money. We need to apply what we've learned and 
coordinate it better.
    And I'm very pleased with the Integrated Food Safety 
Initiative that you've put together, and bringing together in 
CSREES, the Food Safety and Inspection Service and the Food and 
Drug Administration.
    But I wonder if you've got other efforts going on, because 
when I go home, what I run into is programs that are receiving 
some federal funds but on the other hand, a lot of the federal 
folks don't even know what happens when they hit the ground, 
because they haven't gone out there and seen how to have them 
applied.
    And so what other efforts with state, and state 
universities that are doing research, particularly in the food 
safety research related and fresh produce?
    Have you got other entities that are tying into the 
integrated food safety initiative, or are they just federal 
agencies?
    Dr. Hefferan. Well, we have a number of activities 
supporting food safety, the integrated program which does link 
together a variety of programs.
    Through the National Research Initiative, we have two major 
programs in food safety, one on microbial contamination that 
looks at what we've talked about, as well as campylobacter and 
other kinds of microbial contaminants, and it is through that 
program that we have funded jointly research between the 
University of California at Davis and the ARS in California to 
look actually in advance of the most recent concerns about 
spinach contamination, have had work going on in advance of 
that.
    We also have a program that links together food safety 
issues with epidemiology, which has been very critical to 
helping us understand----
    Mr. Farr. Could you give me a list of the other----
    Dr. Hefferan. We will be pleased to give you a list of the 
other programs, and even some samples of the awards and the 
work that's being done, that is being done with the 
universities, and often in collaboration with ARS and with the 
Food and Drug Administration.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
               STAKEHOLDER INPUT ON LEAFY GREENS RESEARCH

    Mr. Farr. California has created a mandate in state law 
that every school district, and there's 1,200 school districts 
in California, has to come up with a nutritional plan.
    I mean, for the first time, you know, everybody has been 
interested in what you teach in the classroom.
    Now, they're interested, parents are interested in what are 
you eating in the lunchroom.
    And that plan is really going to radically change, I think, 
the feeding traditions in schools, which is where you're going 
to begin to fight this obesity program.
    Mr. Kingston asked about the educational, the effort you're 
doing in food and nutrition, the food and nutrition departments 
doing in early childhood education.
    They're getting these young kids to go in and learn the 
values of fruits and vegetables.
    And where it is effective is the store manager in Salinas, 
the Safeway store manager, asked the parents, ``There's 
something going on in your schools, because kids are coming in 
here making their parents buy Kiwis, and I've never had to 
order so many Kiwis in my life.'' So it has a marketplace 
effect.
    I want to ask you, it's my understanding that CSREES, you 
convened a research panel and they presented a report in 
November from the produce industry's leading scientists, that 
gave you the priority of leafy green research, that would 
address some of the important research priorities, including 
intervention strategies, assessment of risk, and risk 
reduction, and microbial ecology of pathogens.
    And I just wondered what you've done with that report, and 
how you've implemented it, the recommendations of that panel, 
of that research panel.
    Dr. Hefferan. That's part of our ongoing efforts to listen 
to stakeholders, as we design our competitive programs.
    And that actually is being reviewed and used right now as 
we're writing the request for applications for the National 
Research Initiative and the Integrated Food Safety Program for 
this coming cycle.
    We've also used that in collaboration with some detailed 
guidance that we have from the Food and Drug Administration 
about their research priority.
    So those are the primary inputs to the design of our food 
safety calls for proposals in several programs.
    Mr. Farr. Have those been passed on to the Secretary and 
were they considered in this--in the administration's 
priorities for--in their budget request for these specialty 
crop initiatives?
    Dr. Hefferan. Well, the Secretary's office certainly has a 
substantial interest in specialty crops, and food safety is one 
of the primary issues within that.
    I guess I'm avoiding the obvious answer.
    To my knowledge, we did not pass those letters on to the 
Secretary's office, or the results of that particular workshop, 
at least not in a specific sense, but it's the basis----
    Mr. Farr. That means that changing that--if they recommend 
priorities, are those priorities getting into the ask, or the 
appropriations process?
    Dr. Hefferan. I think the priorities of food safety are 
absolutely central to the considerations in our programs, but 
directly, they have an influence on how we allocate the funding 
that is ongoing funding in our food safety programs, both, as I 
say, in our integrated program, for which we're asking for a 
small increase, and in the National Research Initiative.
    Mr. Farr. I guess that's a yes answer, but I am concerned, 
if you use all that brainpower and they give you some great 
recommendations, does it make any difference to the way we 
prioritize funding for the department?
    I would hope the answer is yes.
    Dr. Hefferan. The answer is yes, that it makes a tremendous 
difference in how we utilize the ongoing funding that we're 
requesting through this committee.

                        SALINAS VALLEY RESEARCH

    Mr. Farr. I'm just going to complete my statement, is that 
I really, to this research station in Salinas not just because 
it's in my district, but because so much of what's happening in 
agriculture, in fresh--you know, I stated an early comment that 
the Census Department indicated that the largest farm income 
per county in the United States, the five largest counties are 
in California, and Monterey was the largest.
    I mean, there's something very magical going on there, in 
the fact that, without any subsidies, just private investment, 
that this is the most successful agricultural county, growing 
all of, you know, 85 different crops--you know, all the things 
we're talking about, these are all fresh fruits and 
vegetables--that how do you distribute those? How do you get 
them into the feeding programs?
    If you look at all the dietary recommendations, the foods 
that they tell you to eat are grown in that county and in other 
parts of California, primarily, and yet very little of, other 
than U.C. Davis and Riverside, very little of the 
department's--you know, all the things that the department does 
gets into California. The one area that is, is research.
    And, you know, I applaud you for that, but I still think 
you're way behind the eight ball on trying to match up what is 
essentially going on in the street with what you have in 
resource capability here at the federal level.
    And I don't know how you can do that without having--you 
have a station in Salinas.
    It's really been one of your more important stations, 
because I saw the rankings in the United States, and I think it 
ranks 16th and five, and yet it's literally living in sheds.
    And we need to fix that missing link, particularly now that 
you've got partners that want to come in, local partners, with 
the University of California and local agriculture itself.
    We've got so much going on, I just hate to see that--to not 
have the whole gamut of where you're best, which is research, 
having a first-class establishment in an area that is doing so 
much to turn the corner on the issues that you're trying to 
solve.
    Ms. DeLauro. Mr. Kingston.
    Mr. Kingston. Thank you.

                        COLONY COLLAPSE DISORDER

    Dr. Buchanan, tell me what's going on with colony collapse 
disorder, because I think last year you got $7 million and this 
year you got 800,000, so, you know, we're appreciative that you 
need less money, but I hope that means you found something out.
    Dr. Buchanan. I'm not sure we found the solution, but I do 
know that we have certainly been active over the past year.
    In fact, ARS has an active program and CSREES has a CAP 
grant that will be awarded sometime this spring, Dr. Hefferan?
    Dr. Hefferan. That's right.
    Dr. Buchanan. That involves a number of universities and a 
number of different scientists working, so it's one of those 
issues that a lot of work is going on, but we haven't solved 
the problem yet, Congressman.
    Mr. Kingston. But that's a big drop in your request.
    I'm right on that number, aren't I, 7 million last year and 
you want 800,000 this year?
    Dr. Buchanan. I think that was additional, wasn't it?
    Mr. Kingston. Oh, that was the increase? Okay. So you 
want----
    Dr. Buchanan. I think that was the additional.
    Dr. Hefferan. Yes.
    Mr. Kingston. Okay. About a 10 percent increase over last 
year.
    Mr. Farr. Will the gentleman yield?
    Mr. Kingston. Yes.
    Mr. Farr. I was in my orchard last week, and there were no 
bees. And all of the trees are flowering. It's tragic.

                            BEE POLLINATION

    Mr. Kingston. How long could we survive without bees, if 
there was a serious wipeout of the bee population?
    How long before it would drastically affect the food 
supply?
    Dr. Knipling. We don't really know the answer to that.
    There are, in addition to the honeybees, though, there are 
alternative pollinators, other kinds of insects though, that 
can----
    Mr. Kingston. The pollinators are affected by this, also, 
as I understand it.
    Dr. Knipling. We think this malady, the Colony Collapse 
Disorder, is just affecting the honeybee.
    Mr. Kingston. Okay.
    Dr. Knipling. Not the other pollinators.
    But it would be a tremendous impact if we did not have 
honeybees.
    It's hard to put a value on pollination, but there have 
been various estimates of at least $15 billion of, especially 
the horticulture specialty crops that are dependent upon 
pollination.
    Mr. Kingston. If it's only affecting honeybees, that's got 
to be some clue in itself, right?
    Dr. Knipling. Oh, yes.
    Mr. Kingston. Because what would make it affect the 
honeybee and not a pollinating bee?
    Dr. Knipling. Well, it would be, as you say, it would be 
specific to the honeybee.
    We think it's a combination of things. We don't know the 
cause. It's probably not a single thing, but a combination of 
many maladies.
    Mr. Kingston. What's the difference between one bee and the 
other, in terms of genetic design?
    Dr. Knipling. Well, they're distinct species.
    Many of the alternative pollinators are not social insects. 
They don't aggregate in hives. They're more individual insects.
    And that, in itself, probably lends itself to less risk and 
vulnerability to a disease or some other causal factor that 
affects the whole colony, so to speak.
    Mr. Kingston. So it would be maybe a behavior difference 
rather than a biological difference?
    Dr. Knipling. Well, I think the behavioral difference then 
predisposes or lends itself to the biological.
    We do believe it's biological, or perhaps nutritional, 
other kinds of environmental stresses. We think it's a 
combination of those.
    And we have a number of experimental activities underway to 
test those theories, or to get some facts and get away from 
just speculation and anecdotal indicators of what's going on.
    But we are--we have a--we have four honeybee research 
laboratories around the country that are working together in a 
coordinated fashion, in cooperation with the university and the 
industry, for that matter. And so we are----
    Mr. Kingston. Mr. Farr and I have to ask, are any of those 
ARS labs slated to be closed?
    Dr. Knipling. The honeybee laboratory at Weslaco, Texas is 
to be relocated and consolidated with the other three.
    So we're not losing any resources on honeybees, and in 
fact, this budget does have a slight enhancement of the program 
to address this CCD problem, plus we're mobilizing, 
remobilizing what we already have to address this problem.
    Mr. Kingston. All right, now, I'm going to yield back my 
time, but I would like to know what happens in the food chain 
and what happens to a society without a honeybee.
    I mean, to me, I did not know that this was only for 
honeybees, because I thought it did affect pollinators, but I'd 
like to know, if you can send me, you know, what happens if 
your honeybee population greatly decreases.
    Mr. Farr. You'd have no apples, or avocadoes.
    Mr. Kingston. But if it's not a pollinator?
    I'd like to know the answer to that, as much as possible.
    Dr. Buchanan. We are very much aware, Congressman Farr, 
that almonds is the largest export crop from California, and 
bees are very critical for almonds.

                           FOOD STAMP PROGRAM

    Ms. DeLauro. Let me, just a piece of information, and then 
I'll just have a couple of questions.
    We were talking about the food stamp program before.
    As I understand it, the average benefit for food stamps is 
about $101.53. That's for 30 days, about 90 meals. It's $1.13 
per meal.
    Try to buy all the healthy food that you can get--milk, 
cereal, fruit--for $1.13 a meal.
    This tells you something about what folks are potentially 
forced to buy in order that they can feed their family and make 
that $1.13 stretch.
    As my colleague Mr. Kingston leaves, I'm going to enlist 
your help in the farm bill, if we ever get to a farm bill, to 
move on the nutrition portion of the farm bill, which we did a 
good job of in the House, but the Senate wants to cut that 
back.
    And part of that nutrition package is the fruit and 
vegetable snack program.
    In addition to that, it increases the standard benefit for 
food stamp recipients, so that in fact they might be able to 
avail themselves of products that are more healthy and less 
destructive to their health and to the health of their 
children.
    Mr. Kingston. I think we have--do we have Mrs. Johner 
coming up?

                         AGRICULTURE WATER USE

    Ms. DeLauro. She's coming on Thursday.
    I have a question on the water use.
    Dr. Buchanan, it's an unbelievable statistic. Maybe I got 
it wrong.
    It said, in California alone, the use of water in fruit and 
vegetable operations accounts for over 40 percent of total 
national water consumption.
    Is this total water consumption for all purposes or total 
national agriculture water consumption? And how was the 
calculation made?
    Dr. Buchanan. I'm not sure I can answer that. I can get 
that answer for you.
    Ms. DeLauro. Okay. That's fine. Okay.
    And I don't know whether or not the level has gone up or 
down in the past eight, ten years.
    So if you can get back to me on that. I thought it was a 
staggering number.
    Dr. Buchanan. I know water consumption is extremely high, 
but I don't know the particular. I'll have to get them back to 
you.
    [The information follows:]

    Fruit and vegetable processors in California alone use over 62,000 
acre feet of water per year (55 million gallons per day) in their 
operations. Agriculture accounts for 43 percent of the total surface 
and ground water consumed annually in California.
    Nationwide, agriculture is a major user of ground and surface 
water, accounting for 80 percent of consumptive use. Based on the data 
currently available, national agriculture consumption appears to have 
been relatively stable during the period 1985-2000. Water use data is 
compiled in five-year intervals by the U.S. Geological Service.

    Ms. DeLauro. Let me ask you a quick question, and I'm not 
asking this question without my colleague from Georgia knowing 
that I'm asking the question. I'm not blindsiding him since he 
left, he left the room.

                      SOUTHEAST POULTRY LABORATORY

    This is on the Georgia ARS facility. I understand that $16 
million for planning and design of the bio-containment 
facility, I know it's a BSL-3 facility, 16 million for planning 
and design seems very high.
    Why? Why does it cost so much?
    How was the contract for planning and design awarded? Was 
it put out competitively for bid? What did you do to limit the 
cost as much as possible?
    Dr. Knipling. The architectural and engineering cost phase 
of any construction project is generally on the order of 10 
percent, and this is actually a little less than that.
    So that's kind of a standard cost of any construction 
project, roughly 10 percent for the up-front planning and 
design and feasibility studies, and then 90 percent for 
construction.
    Yes, the contract for--well, that contract has not been let 
yet, but it will be competitively allocated.
    There was a pre-designed phase that is complete, and that 
actually was the basis for arriving at the cost estimates. That 
also was under a competitive contract.
    Ms. DeLauro. That's all. That really is a serious amount of 
money.
    And what it prompts me to do, to be very honest with you, 
is to look at some of these other, you know, design phases here 
where some of these are planning and designing this one 
facility, to take a look at the others, and see what the heck 
we're doing here, and with the cost of these efforts.

                           NUTRITION RESEARCH

    Let me, ARS again, on nutrition assistance and education 
programs.
    Where do you think the department should focus its 
resources for nutrition education?
    You've studied various nutrition issues over the past two 
decades.
    We've got just a few minutes of time here.
    What have you learned, and what do we still not understand?
    Dr. Smith. I would love to be able to reply after some 
consideration and briefing.
    Ms. DeLauro. Yeah, that's fine. That's very good. Thank 
you.
    I have--this is--all the results of the research, we were 
talking about research before, how does it get out?
    How does the information get out? What happens? What's 
the--how does it get into the public domain? What is its 
utilization?
    What's the followup on the research? Did it make sense? 
Didn't it make sense?
    What's the evaluation process of all of this research we're 
doing with the universities, with other--what happens to it 
all?

                   DISSEMINATING RESEARCH INFORMATION

    Dr. Buchanan. All scientists publish the results of their 
research in respect, refereed journals.
    That's the first step in the publication process, is to 
publish original research findings in refereed journals.
    That's for ARS scientists, for university scientists, for 
anyone that does research.
    Then there's multiple ways to go from there, and certainly, 
one of the ways is through the Cooperative Extension Service, 
which is a research-based organization in which the Extension 
Service takes findings from research and translates them then 
to applications and delivers that information to the end user, 
whether it's a homeowner or whether it's a farmer or whoever 
could use the information.
    I'm pleased to report that, just two weeks ago, three weeks 
ago, the Cooperative State Research, Education, and Extension 
Service rolled out eXtension, which is a new way of using Web-
based information to get information out, plus it brings 
together information from all over the country.
    It's truly a coordinated effort to get the best information 
out to everybody that has access to the Web, and that's 
important.
    ARS also has other ways of getting information out. It has, 
in addition to the publications, it has the tech transfer unit, 
in which they are very effective in getting information out.
    And of course then you have all kinds of other ways, such 
as field days, in which we have open houses.
    In fact, right here on Capitol Hill this past week, we had 
an opportunity, Science on the Hill. I don't know if any of you 
went.
    But it had some tremendous displays of research from land 
grant universities, from ARS and others, on nutrition and food 
safety research.
    So there's all kinds of ways of getting information out 
that's, I think, very effective.
    Ms. DeLauro. Yes, Dr. Hefferan.
    Dr. Hefferan. Certainly, the eXtension program is important 
to us, and it's not only because it's Web-based, but it's built 
on something called communities of practice, where experts from 
across the country, university and other experts review the 
latest research, and vet it.
    I think that's one of the big problems. Certainly nutrition 
is a good example.
    There's so much information that goes out to citizens, and 
they don't know what is based on many studies, what's based on 
an episodic study, how do you really use that information to 
make decisions?
    So one of the qualities of eXtension is that it does that 
with real experts looking at information before it's made 
available.
    We also use the Small Business Innovation Research Program 
to try to expedite the movement of new findings.
    I know ARS has a very comprehensive program of cooperative 
research and development agreements with a number of private 
vendors to try to make sure that findings are quickly moved 
into the marketplace.
    But I will tell you, having said all of that, it's one of 
our biggest concerns and the area we work on the most.
    I think the one thing that USDA can take great pride in 
over the last several years is that we have integrated our 
research and our extension programs, and even our higher 
education programs in a more deliberate way that has fed the 
use of science in the labs, and looked at what needs to be 
fundamental, what needs to be applied, and how quickly can you 
move it out. So that is a very high priority for us.
    One last example I'll give is that we, of course, in our 
budget, support a laboratory network for diagnostics for plant 
and animal systems around the country.
    We brought that together with ARS, with the Risk Management 
Agency, with APHIS and others, to work with the universities to 
help plot the movement of soybean rust across the country, 
which had the effect of giving producers information that 
helped them manage their work.
    That was integrating all that research and a variety of 
systems together to solve a very real problem.
    And we're looking in this budget to expand that kind of 
network and to really make relevant the science that we're 
producing.
    Ms. DeLauro. Thank you. Thanks very, very much.
    Mr. Farr, you have one last question?

                            ORGANIC RESEARCH

    Mr. Farr. I do. I wanted to just hit for a moment on the 
organic research.
    I understand that you've got a long-term dialogue with 
stakeholders, and ARS has developed an excellent organic 
research plan within ARS in the integrated agricultural systems 
program, and NP-216.
    And I just wondered what the implementation status of this 
plan was, and its objectives, and what progress is being made 
by ARS towards redressing the historical deficit of scientific 
investigation of organic systems and their potential benefits.
    And I also thought that, as Dr. Knipling outlined in his 
six priorities, of what research investments are being made in 
those research priorities for the potential contribution of 
organic systems in meeting the needs of those priorities.
    Dr. Knipling. As you point out, the Organic Agricultural 
Research Program is significant and identifiable.
    We did have this stakeholder meeting in 2006 to develop a 
set of priorities and an action plan.
    We have organic agricultural research at about a dozen 
locations in ARS, including a significant amount at Salinas.
    We classify the organic research in several different ways, 
but we identify roughly $15 million among these dozen locations 
of effort, annual effort toward organic agriculture, and about 
half of that is actually field-based research under organic 
production systems, conditions.
    Then beyond that, much of our research related to pest 
management, genetic improvement, the specialty crop production 
systems, maybe not specifically organic, but it's highly 
relevant to organic, to develop the tools, the use of non-
pesticidal tools that can be applied to organic.
    So in the broadest sense, I would say we probably have on 
the order of 5 percent of our total ARS program directed, 
either directed or indirectly relevant to organic agriculture 
production.
    Mr. Farr. [Not on microphone]--historical deficit. It's 
only 5 percent for scientific investigation.
    Dr. Knipling. Well, I'm not sure I would characterize that 
as a deficit.
    Now, that 5 percent is ARS-wide of everything we do. If we 
just focus on the crop science, the crop production part of 
that, that percentage would be a much higher amount.
    Mr. Farr. Okay. Then perhaps you can submit in writing how 
you can address the organic potential contribution organic 
systems can make in meeting your priorities?
    Dr. Knipling. Yes.
    [The information follows:]

    ARS organic agricultural systems research provides both organic and 
conventional producers with scientific information and technology to 
increase production efficiency and food safety, safeguard the 
environment, and reduce production risks and product losses. 
Researchers are identifying system-wide strategies to overcome soil 
fertility limitations to replace the need for synthetic petroleum-based 
fertilizers; whole-system biological-based management strategies for 
weed, insect pest, and disease control based on an understanding of the 
biological and physical properties innate to plants, soils, 
invertebrates, and microbes to naturally regulate pest problems; whole-
farm management strategies to economically bridge the three-year period 
required to certify fields before selling organic products; and 
partnering with other agencies to help producers define new market 
outlets for regionally produced products. All of this research benefits 
not only the organic industry, but conventional producers as well, by 
reducing their need for increasingly more costly synthetic agricultural 
chemicals.

    Mr. Buchanan. I'd like to comment that the Farm Bill 
proposals that were put forth by the Administration included 
$100 million a year for specialty crop research and education, 
and of course, obviously, organic would be a major part of 
that.
    In fact, there was $10 million specifically requested for 
organic research.
    Mr. Farr. And how much for the rest of it----
    Dr. Buchanan. Well, this was--in the farm bill, the only 
two categories that was requested was for specialty crop and 
for bio-energy.
    There was a request for $50 million a year for bio- energy 
research and $100 million a year for specialty crops. That was 
the only two categories.
    Mr. Farr. Yeah, they're the new kids on the block.
    And I'm just wondering, in the total picture of research, 
what do those $100 million represent, out of what?
    Dr. Buchanan. Well, of course, we have a major commitment 
in addition to our ongoing program in specialty crops, so that 
would be a hard question for me to answer.

                            RESEARCH BUDGET

    Mr. Farr. What's our total research budget?
    Dr. Buchanan. For the four agencies, it's 2.3 billion.
    Mr. Farr. 2.3 billion, and so 100 million for organic and--
--
    Dr. Buchanan. Well, certainly, a good part of the rest of 
the programs do pertain to specialty crops.
    This is not the only thing. This is just an enhancement 
that we requested.
    Dr. Knipling. I could perhaps add to that, specifically for 
ARS, plant science/crop science is the largest part of our 
total program, I would say roughly 40 percent, and for ARS, 
that's about $400 million.
    About half of that we would classify as horticultural crops 
versus the other half, agronomic crops.
    Now, to the extent we consider horticultural crops and 
specialty crops one and the same, we're close to 50 percent of 
our plant science/crop science effort oriented toward 
horticultural crops or specialty crops.
    Mr. Farr. Well, I'd just like to point out in your 
testimony pointed out that one of the major organic research 
ARS stations is in Salinas, and I might add that that Salinas 
station is falling apart.
    Ms. DeLauro. Let me say thank you to our panel, for your 
time, your patience, and for the work that you do, and for your 
candidness in our questions here this morning.
    Obviously, we will be submitting questions for the record.
    There were some questions asked, and we'll get more 
information from you, but we're appreciative of the good work 
that you do on a regular basis.
    Thank you for being here this morning.
    The hearing is adjourned.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
                               I N D E X 

                              ----------                      
                                                                   Page
Research, Education, and Economics
1890 Institutions......................................73, 462-465, 526
Aflatoxin Research...............................................   108
Agency Audits, CSREES............................................   473
Agricultural Education...........................................   460
Agricultural Estimates...........................................    52
Agricultural Research Service (ARS)..............15, 123, 412, 426, 433
Agricultural Sewage Sludge Application, Monitoring...............   453
Agricultural Water Use...........................................   102
Aid and Other Funding and Transfers..............................   109
Air Quality Research.............................................   111
Aircraft, ARS-Owned..............................................   123
Allocation of EFNEP Funds........................................   427
Alternative Crops................................................   492
Animal Genome Mapping............................................   493
Animal Health Consortium.........................................   115
Animal Health Research...............................115, 495, 497, 499
Applied Genomics to Enhance Livestock Production.................    26
Aquaculture...............................................118, 439, 515
ARS Budget Request...............................................   123
ARS Facilities...................................................   433
ARS Weslaco, TX Proposed Closure.................................   426
ARS/CSREES Funding...............................................   412
ARS-Owned Aircraft...............................................   123
Asian Longhorned Beetle..........................................   125
Avian Influenza..................................................   128
Base Allocations.................................................   131
Bee Pollination..................................................   100
Biodegradable Plastic............................................   148
Bioenergy and Biobased Products....................12, 22, 66, 413, 435
Biofuels and Agriculture.........................................    75
Biotechnology Research and Development Corporation (BRDC)........   145
Biotechnology Risk Assessment..................................521, 522
Bioterrorism.....................................................   146
Broadband.......................................................78, 410
BSE Research.....................................................   149
Budget Request, ARS..............................................   123
Buildings and Facilities.........................................   391
Canola Research..................................................   151
Capacity Building Program........................................   524
Census of Agriculture............................................    53
Center for Innovative Food Technology............................   441
Centers for Animal Health........................................   392
Centers for Excellence...........................................   153
Citrus Canker....................................................   157
Citrus Root Weevil...............................................   159
Citrus Tristeza Virus............................................   160
Classical Plant and Animal Breeding..............................   418
Classical Swine Fever (Hog Cholera)..............................   161
Cloned Animals, Study of Commercialization of Products from......   410
Colony Collapse Disorder of Honey Bees.....................27, 100, 162
Commodity Supplemental Food Program..............................    61
Continuing Resolution, Impact of.................................    79
Cooperative State Research, Education, and Extension Service 
  (CSREES).................................................17, 412, 462
Critical Agricultural Materials..................................   527
Crop Genetic Improvement.........................................    27
Crop Health......................................................    25
CWD and TSEs.....................................................   163
Dietary Intervention, OH.........................................   442
Disseminating Research Information...............................   103
E. Coli and Salmonella...........................................    70
Economic Research Service........................................    19
Emerging Diseases and Exotic Pests...............................   165
Emerging Zoonotic and Foreign Animal Diseases...................24, 414
Equipment for the National Disease Center........................    72
Ergot Disease....................................................   169
Ethanol.........................................................78, 407
Extension Activities.............................................   430
eXtension Initiative--ATTRA Involvement..........................   426
Extramural Activities............................................   291
Facility Closures................................................    86
Facility Replacement, Backlog of.................................   350
Federal Funding for the Underserved..............................   461
Food and Agriculture Defense Initiative..........................   529
Food and Nutrition Education Program.............................    92
Food Defense Research............................................   148
Food Prices......................................................    63
Food Safety Increase.............................................    61
Food Safety Research........................................69, 94, 169
Food Safety.................................................14, 22, 406
Food Stamp Program...............................................   101
Foot and Mouth Disease (FMD).....................................   171
Forest Service..............................................84, 85, 411
Formosan Subterranean Termite....................................   172
Foundry Sand Byproducts Utilization..............................   445
Fruit and Nut Research...........................................   173
Funding, ARS/CSREES..............................................   412
Fungal Phytase...................................................   184
GAO and OIG Reports..............................................   185
Germplasm--Plant and Animal......................................   187
Global Change....................................................   191
Grains and Livestock.............................................   195
Grape Phylloxera.................................................   195
Grape Virology Research..........................................   195
Grasshopper and Mormon Cricket...................................   196
Greenhouse and Hydroponics Research..............................   447
Greenhouse Nurseries.............................................   448
Hatch Act...................................................63, 532-559
Higher Education Challenge Grants................................   560
Higher Education Organic Research................................   424
Hispanic Education Partnership Grants Program....................   562
Homeland Security................................................   110
Honey Bee........................................................   198
Hops Research....................................................   202
Human Nutrition Research........................................70, 204
Hydroponic Tomato Production, OH.................................   449
Income Enhancement Demonstration.................................   451
Information System, Research, Education, and Economics...........   646
Integrated Pest Management (IPM).................................   206
Integrated Research, Education, and Extension Activities.........   572
Invasive Species.................................................   211
IR-4 and Pesticide Clearances....................................   573
IR-4 Research....................................................   210
Jointed Goat Grass Control Research..............................   211
Laboratory Closures..............................................    68
Laboratory Security..............................................   213
Land Prices and the Rural Economy................................   408
Lapsed Salaries..................................................   214
Late Blight Potato Research......................................   214
Leafy Greens Research, Stakeholder Input.........................    98
Library Changes and Usage........................................   234
Locoweed Research................................................   215
Low-Input Sustainable Agriculture................................   216
Lyme Disease Research............................................   223
Management Costs.................................................   225
Marek's Disease..................................................   225
McIntire-Stennis Forestry Grants................................575-606
Methyl Bromide Research..........................................   227
Motor Vehicles...................................................   230
NAFTA...........................................................75, 406
NAL Building and Repair Maintenance..............................   394
Narcotics Control Research.......................................   231
National Agricultural Library..............................28, 232, 422
National Agricultural Statistics Service.........................    20
National Antimicrobial Resistance Monitoring System (NARMS)......   242
National Arboretum........................................243, 395, 425
National Needs Graduate and Postdoctoral Fellowships.............   620
National Program Leader..........................................   423
National Research Initiative (NRI)..............................608-623
Native American Institutions Endowment Fund.....................624-638
New Crops........................................................   243
New Research Facilities..........................................   395
Non-Federal Funding Sources......................................   109
Noxious Weeds....................................................   246
Nutrition Programs...............................................    66
Nutrition Research...............................................   103
Obesity Prevention Research......................................    91
Obesity.................................................13, 23, 93, 416
Object Class Table...............................................   252
Office of Pest Management........................................   252
Ogallala Aquifer.................................................   253
Opening Statement, Dr. Buchanan..................................     2
Organic Livestock................................................   421
Organic Research..........................................105, 422, 427
Patents and Royalties............................................   254
Peanut Research..................................................   262
Peas, Lentils, and Legumes.......................................   264
Pecan Research...................................................   269
Peer Panels......................................................   639
Pesticide Impact Assessment......................................   640
Phylloxera.......................................................   195
Phytoestrogen..................................................276, 455
Phytoremediation Plant Research..................................   454
Pierce's Disease.................................................   277
Plant and Animal Diseases and Pests, Homeland Security...........   110
Plant Genome Mapping.............................................   642
Plum Island Animal Disease Center................................    83
Potato Research..................................................   278
Poultry Facilities...............................................   396
Questions Submitted by Chairwoman DeLauro......................108, 462
Questions Submitted by Congressman Farr..........................   418
Questions Submitted by Congressman Jackson.......................   458
Questions Submitted by Congressman Kingston......................   406
Questions Submitted by Congresswoman Kaptur......................   430
Reduction in Facility Appropriations.............................    82
Regional Rural Development Centers...............................   645
Repair and Maintenance...........................................   397
Research and Extension Grant Assessments.........................   438
Research Budget..................................................   106
Research Project Termination...................................281, 286
Research Projects in the Budget Presentation.....................   281
Rural Development................................................    90
Salinas Valley Research..........................................80, 99
Scientific Staffing..............................................   301
Section 406 Integrated Activities................................   423
Small Business Innovation Research (SBIR) Program................   648
Soil and Water Research..........................................   303
Southeast Poultry Laboratory....................................68, 103
Soybean Research.................................................   325
Soybean Rust.....................................................   332
Specialty Crop Research Initiative.............................414, 418
Staffing Reductions..............................................    77
STEEP Research/Water Quality in the Pacific Northwest............   333
Sudden Oak Disease...............................................   337
Sustainable Agriculture Program, USDA............................   656
Sustainable Agriculture Research and Education (SARE) Program....   650
Sweet Potato Whitefly............................................   337
Swine Research...................................................   340
Technology Transfer..............................................   340
Tobacco Research.................................................    89
Tomato, Hydroponic Production, OH................................   449
Urban Agriculture................................................   458
Utilization Centers..............................................   346
Veterinarian Shortage............................................    86
Veterinary Medical Services Act (VMSA).....................71, 416, 657
Viral Hemorrhagic Septicemia (VHS)...................346, 431, 470, 658
Water............................................................14, 28
Watkinsville Research Laboratory.................................67, 74
Weslaco, TX Proposed Closure, ARS................................   426
West Nile Virus..................................................   346
Wheat Disease....................................................   347
Written Statement, Dr. Colien Hefferan, Administrator, CSREES....    31
Written Statement, Dr. Edward B. Knipling, Administrator, ARS....    21
Written Statement, Dr. Gale A. Buchanan, Under Secretary, REE....     6
Written Statement, Dr. Katherine Smith, Administrator, ERS.......    40
Written Statement, Joseph T. Reilly, Acting Administrator, NASS..    51

                                  <all>




</pre></body></html>
